<html>
<title> - EXAMINING THE IMPACTS OF RELOCATING USDA RESEARCH AGENCIES ON AGRICULTURE RESEARCH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








     EXAMINING THE IMPACTS OF RELOCATING USDA RESEARCH AGENCIES ON
                          AGRICULTURE RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2019

                               __________

                            Serial No. 116-8



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
36-729 PDF                 WASHINGTON : 2019 











                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
JEFFERSON VAN DREW, New Jersey       DOUG LaMALFA, California
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               TED S. YOHO, Florida
SALUD O. CARBAJAL, California        MIKE BOST, Illinois
JIMMY PANETTA, California            JAMES COMER, Kentucky
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
AL LAWSON, Jr., Florida

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Baird, Hon. James R., a Representative in Congress from Indiana, 
  prepared statement.............................................     4
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     3
    Submitted letters............................................    33
Hartzler, Hon. Vicky, a Representative in Congress from Missouri, 
  submitted letter...............................................    40
Pingree, Hon. Chellie, a Representative in Congress from Maine, 
  submitted statement; on behalf of Roger Johnson, President, 
  National Farmers Union.........................................    31
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
    Prepared statement...........................................     2
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina:
    Prepared statement...........................................     4
    Submitted letters............................................    41
Schrier, Hon. Kim, a Representative in Congress from Washington, 
  submitted letter...............................................    23

                               Witnesses

Payne, Ph.D., Jack M., Senior Vice President for Agriculture and 
  Natural Resources, University of Florida; Administrative Head, 
  Institute of Food and Agricultural Sciences, UF, Gainesville, 
  FL.............................................................     5
    Prepared statement...........................................     7
    Submitted questions..........................................    47
Tracy, Ph.D., William F., Professor, Department of Agronomy, 
  University of Wisconsin-Madison, Madison, WI...................     8
    Prepared statement...........................................    10
    Submitted questions..........................................    61
Brownlee, Elizabeth J., Owner and Operator, Nightfall Farm; 
  President, Hoosier Young Farmers Coalition; Member, National 
  Young Farmers Coalition, Crothersville, IN.....................    12
    Prepared statement...........................................    14
    Submitted questions..........................................    63

 
     EXAMINING THE IMPACTS OF RELOCATING USDA RESEARCH AGENCIES ON 
                           AGRICULTURE RESEARCH

                              ----------                              


                        WEDNESDAY, JUNE 5, 2019

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 1300, Longworth House Office Building, Hon. Stacey E. 
Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Van Drew, Schrier, Carbajal, Lawson, Dunn, Hartzler, 
LaMalfa, Yoho, Comer, Baird, and Rouzer.
    Staff present: Kellie Adesina, Brandon Honeycutt, Keith 
Jones, Bart Fischer, Patricia Straughn, Jeremy Witte, Dana 
Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research entitled, Examining 
the Impacts of Relocating USDA Research Agencies on Agriculture 
Research, will come to order.
    Thank you all for being here. This is the first hearing of 
the Subcommittee on Biotechnology, Horticulture, and Research. 
And myself and the Ranking Member, Mr. Dunn, are excited about 
the possibilities and the issues that we are going to be 
looking at during our time here with you all in this 116th 
Congress.
    I want to thank you for joining us to examine the impacts 
of relocating the Economic Research Service and the National 
Institute of Food and Agriculture. The decision to relocate ERS 
and NIFA lacks transparency and is not supported by an 
overwhelming majority of the stakeholders who partner with the 
agencies.
    Secretary Perdue's claim that the research agencies are 
better served elsewhere are misconstrued. Any reforms to USDA's 
research agencies must have clear benefits to ag research and 
be conducted in a transparent manner. Secretary Perdue's 
proposals lack both.
    As the Virgin Islands Congresswoman, I represent the 
University of the Virgin Islands, a land-grant university, and 
it has skin in the game, as do the territory's small-scale 
producers who benefit from fully staffed agencies. Not only 
were stakeholders entirely cut out of this process, they were 
blindsided by the announcement from USDA last August. And to 
date, the actual benefits to ag research or an economic 
analysis of this proposal have not been conveyed.
    ERS and NIFA are already understaffed well below their 
appropriated staffing levels. Instead of pushing forward a 
proposal that will only exacerbate staff losses, USDA should be 
working to adequately staff these agencies. The agency is still 
catching up from a 35 day shutdown. Further reducing staff only 
weakens the agencies' ability to operate or respond to future 
events. Staff losses directly translate into a loss of critical 
institutional knowledge and decrease capacity to implement the 
very programs we just authorized in the 2018 Farm Bill.
    This proposal will undermine the integrity of these 
agencies and their ability to operate, and it was followed by a 
Fiscal Year 2020 budget request which proposed cutting the 
number of ERS employees in half. This relocation announcement 
seems to me like a step towards an overall goal of staff 
reduction.
    Relocation will limit the agencies' ability to coordinate 
and cooperate with other Federal entities based in the National 
Capital Region, such as other Federal departments, the National 
Academies, the National Science Foundation.
    Agriculture research does not take place in a vacuum, and 
modern science is complex and interdisciplinary. We should be 
encouraging collaboration, not isolating agencies.
    In consultation with the Ranking Member and pursuant to 
Rule XI(e), I want to make Members of the Subcommittee aware 
that other Members of the full Agriculture Committee may join 
us today.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Thank you for joining us to examine the impacts of relocating the 
Economic Research Service and the National Institute of Food and 
Agriculture. The decision to relocate ERS and NIFA lacks transparency 
and is not supported by an overwhelming majority of stakeholders who 
partner with the agencies.
    Secretary Perdue's claim that the research agencies are better 
served elsewhere is misconstrued.
    Any reforms to USDA's research agencies must have clear benefits to 
ag research and be conducted in a transparent manner. Secretary 
Perdue's proposal lacks both.
    As the Delegate for the Virgin Islands, I represent the University 
of the Virgin Islands, a land-grant university, and it has skin in the 
game, as do the territory's small-scale producers who benefit from 
fully staffed agencies.
    Not only were stakeholders entirely cut out of this process, they 
were blindsided by the announcement from USDA last August. And to date, 
the actual benefits to ag research or an economic analysis of this 
proposal have not been conveyed.
    ERS and NIFA are already understaffed well below their appropriated 
staffing levels. Instead of pushing forward a proposal that will only 
exacerbate staff losses, USDA should be working to adequately staff 
these agencies. The agency is still catching up from a 35 day shutdown. 
Further reducing staff only weakens the agencies' ability to operate or 
respond to future events. Staff losses directly translate into a loss 
of critical institutional knowledge and decreased capacity to implement 
the very programs we just authorized in the 2018 Farm Bill.
    This proposal will undermine the integrity of these agencies and 
their ability to operate, and it was followed by an FY20 Budget Request 
which proposed cutting the number of ERS employees in half. This 
relocation announcement seems to me like a step towards an overall goal 
of staff reduction.
    Relocation will limit the agencies' ability to coordinate and 
cooperate with other Federal entities based in the National Capital 
Region--such as other Federal departments, the National Academies, and 
the National Science Foundation. Agriculture research does not take 
place in a vacuum, and modern science is complex and interdisciplinary. 
We should be encouraging collaboration, not isolating agencies.
    In consultation with the Ranking Member and pursuant to Rule XI(e), 
I want to make Members of the Subcommittee aware that other Members of 
the full Committee may join us today.

    The Chair. With that, I will recognize the Ranking Member, 
the distinguished gentleman from Florida, Mr. Dunn, for any 
opening remarks he would like to make.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Thank you very much, Chair Plaskett.
    This Subcommittee has jurisdiction over biotechnology, 
pesticide regulation, plant, pest, and disease programs, all 
policy areas that will have a profound impact on the future of 
American agriculture.
    And while I am excited the Committee is holding its first 
hearing, it absolutely baffles me that our first topic is USDA 
office relocation. I don't understand the obsession with the 
Secretary's decision. And some of the claims that I hear from 
the opponents to this move are making no sense to me at all.
    In February, Secretary Perdue sat at the table and told 
this Committee that one of his top reasons for the relocation 
is talent. According to U.S. News & World Report, four of the 
top five richest counties in the United States are located in 
the Washington, D.C., suburbs. Let's face it, it is expensive 
to live and raise a family in this area. And USDA cited that as 
a fact, as one of the biggest reasons why it is difficult to 
attract top talent and why the Department struggles to fill its 
positions.
    In response to the relocation, my Democratic colleagues 
have introduced H.R. 1221, the Agriculture Research Integrity 
Act of 2019. And while billed as a response to the 
Administration's proposed relocation, this legislation would 
actually require the Secretary to relocate thousands of 
personnel to the Washington, D.C., area at enormous expense.
    The Agricultural Research Service has about 4,500 
researchers and other staff working in facilities throughout 
the nation, outside Washington, D.C. If this bill were to 
become law, several ARS research stations throughout the 
country would actually close.
    This bill alone makes it abundantly clear that the 
Majority's focus is on obstructing the work of the 
Administration, except that in this case, the obstruction 
actually would devastate the ARS infrastructure that we have 
worked for decades to build throughout the United States.
    I am proud to have joined a letter by Ranking Member Mike 
Conaway and Congresswoman Vicky Hartzler and signed by every 
Republican Member on the House Agriculture Committee in support 
of the Secretary's decision. Additionally, there are several 
other letters signed by both Democratic and Republican Members 
in Congress in support of the relocation.
    Contrary to the tone that we will hear today, Secretary 
Perdue has broad support to move forward with this relocation.
    I recognize that Congress must exercise its oversight 
authority, and I am supportive of an honest and thoughtful 
conversation about the direction that USDA agricultural 
research programs take; however, it is not the purpose of this 
hearing. In this Congress, we have consistently seen that if 
the President and his team propose something, the Majority will 
automatically oppose it. The topic seldom seems to matter.
    Instead of tackling real issues that impact the true 
stakeholders of USDA, it is unfortunate that some of our 
colleagues continue to play politics. The Secretary has laid 
out a measured and deliberate plan for the relocation, has 
taken steps to help the affected employees. And I am confident 
of his execution.
    This is a fight that exists only in the Washington, D.C., 
Beltway bubble, and in ivory towers across the country. When I 
talk to folks back home, most everybody agrees that the farther 
you are away from Washington, D.C., the better off you are. I 
look forward to moving on to the real issues that face American 
agriculture.
    And, Madam Chair, I yield back.
    The Chair. Thank you very much.
    As Chair, I would request that other Members submit their 
opening statements for the record so that the witnesses may 
begin their testimony to ensure that there is ample time for 
questions.
    [The prepared statements of Mr. Baird and Mr. Rouzer 
follow:]

Prepared Statement of Hon. James R. Baird, a Representative in Congress 
                              from Indiana
    As a proud Hoosier farmer, I am honored to see Indiana as a 
finalist to serve as the new home of the USDA's ERS and NIFA offices. I 
want to strongly express my support for West Lafayette, which is easily 
accessible through both the Indianapolis and Chicago airports and is 
home to Purdue University, a world-class land-grant university.
    With three World Food Prize laureates on faculty, the most advanced 
plant phenotyping center, and the No. 1 agriculture and biological 
engineering program, Purdue is already a leader in cutting-edge 
agricultural research and innovation. USDA would benefit immediately 
from the knowledge base already at home in West Lafayette and the 
nearly 700 students who graduate annually with agriculture degrees 
would be eager to fill current vacancies at ERS and NIFA.
    Further, West Lafayette would provide tremendous benefits to 
existing ERS and NIFA staff. The U.S. Department of Labor Statistic 
recently announced Tippecanoe County is number one in the country for 
the largest year-over-year weekly wage growth. The area has also been 
recognized as a ``Best Place to Live'' by Forbes Magazine. With top-
ranked K-12 schools, less time spent in traffic, and a much lower cost 
of living than Washington, D.C., I am confident ERS and NIFA employees 
will appreciate everything Hoosier hospitality has to offer.
    As the ``Crossroads of America,'' Indiana would serve as an 
excellent median location for meeting the needs of the ERS and NIFA 
offices while addressing the challenges they currently face in 
Washington, D.C. Situated roughly halfway between Indianapolis and 
Chicago, USDA employees will never be far from direct flight to 
Washington, D.C. or the farmers, researchers, and land-grant 
universities they serve.
                                 ______
                                 
 Prepared Statement of Hon. David Rouzer, a Representative in Congress 
                          from North Carolina
    Thank you to my friend for Florida for yielding.
    My great State of North Carolina is a leading state in the 
agriculture industry and our triangle region is known for our premier 
universities and a world-class workforce. Though I don't agree, I 
understand my colleagues concerns about relocation of the Economic 
Research Service and the National Institute of Food and Agriculture. 
The Triangle's rich educational and research resources, as well as our 
climate of innovation, are just a 4\1/2\ hour drive from Washington, 
D.C. and a mere twenty minute drive from Raleigh-Durham International 
airport.
    If you drive in any direction from the Triangle's unmatched 
concentration of domestic and global agricultural biotechnology 
companies, you will quickly find our highly diverse agricultural 
industry that includes more than 47,000 farms growing 90 different 
commodities in 400 different soil types. The 8 million North Carolina 
acres in farm use are fertile ground for a partnership with USDA.

    The Chair. And I just want to make everyone aware that 
under the Rules of the Committee, the record of today's hearing 
will remain open for 10 calendar days to receive additional 
material and supplementary written responses from the witnesses 
to any questions posed by a Member.
    I would like to welcome all of our witnesses. Thank you for 
being here today. At this time, I will introduce our first 
witness, Dr. Jack Payne. Dr. Payne is a Senior Vice President 
for Agriculture and Natural Resources at the University of 
Florida in Gainesville, Florida.
    Mr. Yoho, is that near you?
    Mr. Yoho. Yes, ma'am, it is.
    The Chair. I thought so.
    Mr. Yoho. I am going to take a picture of him. I am a 
Double Gator.
    The Chair. I know it, I know it.
    The second witness is Dr. William Tracy. Dr. Tracy is a 
Professor of Agronomy at the University of Wisconsin-Madison.
    And we will also hear from Ms. Elizabeth Brownlee. Ms. 
Brownlee is the owner and operator of Nightfall Farm, a 
diversified livestock operation in Crothersville, Indiana.
    We will now proceed to hearing the testimony. You will each 
have 5 minutes. When 1 minute is left, the light that you see 
will turn yellow as a signal for you to start wrapping up your 
testimony. All right?
    Dr. Payne, please begin when you are ready.

        STATEMENT OF JACK M. PAYNE, Ph.D., SENIOR VICE 
PRESIDENT FOR AGRICULTURE AND NATURAL RESOURCES, UNIVERSITY OF 
                 FLORIDA; ADMINISTRATIVE HEAD, 
 INSTITUTE OF FOOD AND AGRICULTURAL SCIENCES, UF, GAINESVILLE, 
                               FL

    Dr. Payne. Well, good morning, Chair Plaskett, Ranking 
Member Dunn, and Members of the Committee. And besides 
Congressman Yoho being my Congressman for where I work at the 
University of Florida, Congressman Dunn is my Congressman where 
I live. So it is great to see both of them.
    I am Jack Payne, the University of Florida's Senior Vice 
President for Agriculture and Natural Resources and 
Administrative Head of UF's Institute of Food and Agricultural 
Sciences, or what we call UF/IFAS. However, I come before you 
on behalf of myself. I am not representing the University of 
Florida.
    Our nation's winter fruit and vegetable supply depends on 
the support of the National Institute of Food and Agriculture 
and the Economic Research Service for UF/IFAS' innovation and 
discovery. Florida farmers, fishers, foresters, and ranchers 
succeed in part because of what NIFA and ERS do, and they 
succeed because of where NIFA and ERS do it. Right here, not 
600 or 1,000 miles from here.
    Relocation moves NIFA away from its primary partners, 
Federal science agencies, leading scientists, policymakers, and 
experts. The move risks impeding NIFA's core mission to be a 
vital contributor to science policy, decision-making, and an 
integral part of the Federal effort to address the most 
pressing local and global agricultural problems of our day.
    We have solved the easy problems in agriculture. In today's 
world, we are working on complex challenges that require 
multiple disciplines working together on solutions. You get the 
best science when you can bring different disciplines together 
to examine a problem from many angles. The Federal Government 
can incentivize this interdisciplinary work by combining 
funding for multiple agencies.
    Bringing diverse scientific expertise together is extremely 
difficult, even among departments that share a building at the 
University of Florida. It would be so much harder if those 
departments were in different states.
    The nation's capital is the best place to address the 
nation's agricultural research needs. There is no place better 
for NIFA to coordinate with other funding agencies, call 
attention to the national need for more agricultural research, 
and to meet with representatives of what its website calls its 
chief partner, the nation's land-grant universities.
    Farmers are among the ultimate beneficiaries of NIFA-funded 
science. USDA has an efficient network of land-grant university 
extension agents and research stations, over 500 of them, to 
provide information to those farmers in their communities and 
across the country. It is a proven model that can 
instantaneously disperse vital scientific discoveries and new 
methods to farmers who can use it.
    To say ERS and NIFA need to be geographically closer to 
farmers is to miss how effective this network is in delivering 
innovation to farmers nationwide.
    Furthermore, NIFA and ERS have other important customers: 
USDA, land-grants, Congress, and other Federal science agencies 
such as NIH and NSF. Relocation would put the agencies farther 
from these more direct customers.
    I have dedicated most of my professional life to land-grant 
universities. I am a product of one. That set me on a career 
course of public service producing and disseminating science 
that improves people's lives. I have worked at five land-grant 
universities and served as the policy chair for the Association 
of Public and Land-grant Universities Board on Agriculture 
Assembly. In that role, I was able to contribute to the 
creation of NIFA in the 2008 Farm Bill.
    Today, I have the privilege of leading IFAS. We have a 
budget of more than $400 million to operate a College of 
Agricultural and Life Sciences, an extension service with 
offices in all 67 Florida counties, and a network of 17 
research stations. All this supports the $160 billion a year 
agriculture.
    And I see that my time is almost over, so I am going to 
jump to my concluding paragraph. I want to thank Chairman 
Bishop of the Agriculture Appropriations Subcommittee for 
including bill language for the Fiscal Year 2020 blocking the 
relocation proposal.
    And in conclusion, I thank the Committee for examining the 
critical role of NIFA in support of agricultural innovation and 
resiliency and for taking the time to hear directly from NIFA's 
primary partners, the scientific and educational community, and 
about the impact of this relocation of NIFA outside the Greater 
Washington area.
    I appreciate your leadership on this important issue, and I 
am pleased to respond to any questions from the Committee. 
Thank you.
    [The prepared statement of Dr. Payne follows:]

 Prepared Statement of Jack M. Payne, Ph.D., Senior Vice President for 
       Agriculture and Natural Resources, University of Florida; 
 Administrative Head, Institute of Food and Agricultural Sciences, UF, 
                            Gainesville, FL
    Good morning, Chair Plaskett, Ranking Member Dunn, and Members of 
the Committee. Thank you for holding this important hearing. I'm Jack 
Payne, the University of Florida's Senior Vice President for 
Agriculture and Natural Resources and Administrative Head of UF's 
Institute of Food and Agricultural Sciences, or UF/IFAS. However, I 
come before you on behalf of myself and am not representing the 
university.
    The nation's winter fruit and vegetable supply depends on the 
support of the National Institute of Food and Agriculture and the 
Economic Research Service for UF/IFAS innovation and discovery. Florida 
farmers, fishers, foresters, and ranchers succeed in part because of 
what NIFA and ERS do. And they succeed because of where NIFA and ERS do 
it. . . . Right here, not 250, 600, or even 1,000 miles from here.
    Relocation moves NIFA away from its primary partners--Federal 
science agencies, leading scientists, policymakers, and experts. The 
move risks impeding NIFA's core mission to be a vital contributor to 
science policy decision-making and an integral part of the Federal 
effort to address the most pressing local and global agricultural 
problems of our day.
    We've solved the easy problems in agriculture. In today's world, 
we're working on complex challenges that require multiple disciplines 
working together on solutions.
    You get the best science when you can bring different disciplines 
together to examine a problem from many angles. The Federal Government 
can incentivize this interdisciplinary work by combining funding from 
multiple agencies.
    Bringing diverse scientific expertise together is extremely 
difficult, even among departments that share a building in Gainesville. 
It would be so much harder if those departments were in different 
states.
    The nation's capital is the best place to address the nation's 
agricultural research needs. There's no place better for NIFA to 
coordinate with other funding agencies, call attention to the national 
need for more agricultural research, and to meet with representatives 
of what its website calls its ``chief partner''--the nation's land-
grant universities.
    Farmers are among the ultimate beneficiaries of NIFA-funded 
science. USDA has an efficient network of land-grant university 
Extension agents and research stations to provide information to those 
farmers in their communities and across the country. It's a proven 
model that can instantaneously disperse vital scientific discoveries 
and new methods to farmers who can use it. To say ERS and NIFA need to 
be geographically closer to farmers is to miss how effective this 
network is in delivering innovation to farmers nationwide.
    Furthermore, NIFA and ERS have other important customers--USDA, 
land-grants, Congress, and other Federal science agencies. Relocation 
would put the agencies farther from these more direct customers.
    I have dedicated most of my professional life to land-grant 
universities. I'm a product of one. That set me on a career course of 
public service, producing and disseminating science that improves 
people's lives. I have worked at five land-grant universities and 
served as the policy chair for the Association of Public and Land-grant 
Universities Board on Agricultural Assembly. In that role, I was able 
to contribute to the creation of NIFA in the 2008 Farm Bill.
    Today I have the privilege of leading UF/IFAS. We have a budget of 
more than $400 million to operate a College of Agricultural and Life 
Sciences, an Extension service with offices in all 67 Florida counties, 
and a network of 17 research stations. All of this supports the $160 
billion a year enterprise that is Florida agriculture.
    With NIFA's support, we discover and disseminate knowledge for 
Florida's farmers, foresters, fishers, and ranchers. Land-grant 
universities are the bridge between farmers and NIFA, which funds 
agricultural research and sets the national research agenda.
    It's puzzling that land-grant leaders were not consulted a year ago 
when USDA was conceiving a plan to relocate NIFA and ERS.
    Since we've only been given a chance to react, not participate, all 
that land-grant leaders have been able to use our voice for is to 
oppose the move. We've done so in letters to the House Agriculture 
Committee, in visits with Congressional staff, in op-eds, and in 
meetings with our commodity leaders.
    The Washington Capital Region has a highly educated workforce and a 
vibrant employment sector that is attractive to two-career families. 
That gives NIFA and ERS a large talent pool to draw upon to fill 
mission-critical vacancies.
    The proposal to relocate NIFA and ERS is already doing harm before 
it's even implemented. We're witnessing a brain drain as Federal 
employees faced with the prospect of suddenly moving their families to 
Kansas City, North Carolina, or Indiana are choosing to leave NIFA or 
ERS instead. My understanding is that more than 100 positions are 
vacant, and we can expect vacancies will accelerate after the location 
of the move is announced. What has been presented as a way to attract 
talent is doing just the opposite.
    The Washington Capital Region is a hub for so many agencies, 
associations, nonprofits, higher education institutions, and private 
firms. It is a dynamic interaction with all of these scientific and 
policy-making partners that feeds our cycle of innovation and 
discovery.
    Innovation keeps us globally competitive in agriculture. Anything 
that slows the pace of discovery and dissemination will hurt farmers 
served by land-grants and give additional advantage to our competitors.
    A good example is citrus greening. One of our most promising lines 
of inquiry into stopping citrus greening is funded jointly by NIFA and 
the National Science Foundation. The two agencies' cooperation is 
accelerating our scientists' work on using CRISPR to edit the citrus 
genome to create more disease-tolerant fruit.
    If the loss of so much expertise at NIFA delays consideration and 
distribution of research grants, that could spell further doom for 
Florida orange juice. NIFA funding is essential to the beat-the-clock 
effort to curb a disease that threatens to bring down my state's iconic 
citrus industry.
    Such grants will be much more difficult to arrange with NIFA 
located far away from potential co-funders. Less coordination could 
also result in duplication of efforts. All this will play out at more 
than 100 land-grant universities across the nation.
    I appreciate the House Appropriations Committee including bill 
language for FY 2020 blocking the relocation proposal.
    I ask for your continuing help so that I can get back to working 
with USDA instead of delivering testimony like today's.
    In conclusion, I thank the Committee for examining the critical 
role of NIFA in support of agriculture innovation and resiliency, and 
for taking the time to hear directly from NIFA's primary partners, the 
scientific and educational community, about the impact of the 
relocation of NIFA outside the greater Washington area. I appreciate 
your leadership on this important issue, and I am pleased to respond to 
any questions from the Committee.

    The Chair. Thank you.
    And the next witness that we have, our second witness, Dr. 
William Tracy, you may begin. You will have 5 minutes for a 
statement.

       STATEMENT OF WILLIAM F. TRACY, Ph.D., PROFESSOR, 
   DEPARTMENT OF AGRONOMY, UNIVERSITY OF WISCONSIN-MADISON, 
                          MADISON, WI

    Dr. Tracy. Thank you.
    Good morning, Chair Plaskett, Ranking Member Dunn, and 
Members of the Subcommittee. Thank you for holding this 
hearing, and thank you for inviting me to give my views on the 
proposal to move NIFA and ERS.
    In my role here today, I am not speaking for the University 
of Wisconsin-Madison, but my views do reflect the thoughts of 
many of my scientific colleagues around the country. In fact, I 
haven't actually talked to another scientist that actually 
thinks this is a good move.
    Over my career, I have frequently referred to publications; 
as a matter of fact, weekly I get reports from the Economic 
Research Service. I use them in presentations in classrooms. 
And as an active agricultural researcher, I have had numerous 
interactions with NIFA over the years and have received 
multiple grants from NIFA.
    A little bit of history: When I started teaching my course 
in 1985, I would say with pride, that the U.S. produced more 
than 50 percent of the world's corn and soybeans. Today, we 
produce 34 percent. This reduction is not because we are 
producing less. We are producing probably twice as much as we 
did in 1985. The reduction is because our competitors are 
producing much, much more.
    We cannot produce our way out of this dilemma, and so in 
order to save family farms and improve our environment, we need 
more publicly-funded agricultural research. And I believe that 
the proposed relocation of the National Institute of Food and 
Agriculture and Economic Research Service will diminish our 
capacity to deliver that research.
    A couple of particular concerns: I am very much concerned 
that the move will actually decrease communication with other 
agencies, as Dr. Payne mentioned. I have received grants from 
the National Science Foundation as well as NIFA, and many of my 
colleagues receive grants from the National Institutes of 
Health. Many of my agricultural colleagues receive grants from 
the National Institutes of Health, EPA, DOE, and other 
agencies. All of these agencies actually work together on 
agriculture, and having the key, as Dr. Payne said, the key 
partner of the land-grants move away from these other groups is 
really going to reduce communication.
    I believe there is certainly some discussion about moving 
these agencies so they would be closer to constituents. Really, 
we are kind of talking about just a small group of 
constituents. Other people, this would move further away from 
them. I would say that often when we are talking to NIFA, we 
meaning researchers, we often bring farmers with us and coming 
to D.C., and then we can meet with folks from NIH, DOE, and 
places like that, as well as NIFA.
    The one other thing that I want to mention, and it has 
already kind of popped up, it is happening now, is perception 
of bias. Having had the honor of serving as an AFRI grant panel 
manager through NIFA, that is the person who chooses other 
panelists and assigns proposals for review, I know firsthand 
how hard the national program leaders work to make sure there 
is no hint of bias or favoritism. This is not just toward 
research proposals from colleagues or panelists, but making 
sure that there is no hint of regional bias, ethnic diversity, 
or states. This is very, very important, and I admire the hard 
work that they do.
    I believe it is already happening, but people, if we move 
NIFA out of D.C., people will perceive bias, even if there is 
no favoritism, even if there is no change in how they do 
business. People are going to say, ``Well, they favor Wisconsin 
because that is where they are and that is where they are being 
influenced.''
    I really think that keeping them here will actually reduce 
that possibility of bias, or at least the perception of bias. I 
think that is very important to its mission.
    Thank you.
    [The prepared statement of Dr. Tracy follows:]

Prepared Statement of William F. Tracy, Ph.D., Professor, Department of 
         Agronomy, University of Wisconsin-Madison, Madison, WI
    Good morning, Chair Plaskett, Ranking Member Dunn, and Members of 
the Subcommittee. Thank you for holding this hearing and for giving me 
the opportunity to provide my perspective on the impacts of relocating 
and reorganizing two U.S. Department of Agriculture research agencies, 
the Economic Research Service (ERS) and the National Institute of Food 
and Agriculture (NIFA). In my role here today, I am not speaking for 
the University of Wisconsin-Madison, but my views do reflect the 
thoughts of many of my colleagues around the country.
    I am Bill Tracy and I have been a faculty member in the Department 
of Agronomy at the University of Wisconsin-Madison since 1984. I served 
as Chair of the Department of Agronomy for 14 years from 2004 to 2018, 
and as interim dean of the College of Agricultural and Life Sciences. 
Prior to that I worked for private-sector seed companies. At Madison, I 
teach a course in principles of crop production and a graduate level 
course in agroecology. My research area is plant breeding, genetics, 
and genomics of sweet corn, and I have developed varieties grown 
commercially on every continent. Over my career, I have frequently 
referred to publications and information distributed by ERS and have 
used their work in publications and classrooms. As an active 
agricultural researcher, I have also had numerous interactions with 
NIFA over the years and have received multiple NIFA grants.
    We all recognize that U.S. agriculture and farmers are under severe 
stress right now. In Wisconsin, we stand in disbelief as our friends 
and neighbors, good farmers, are losing their dairy farms--25% in the 
last 5 years, 638 farms in 2018, and already 302 this year. The extreme 
weather events this year have been particularly devastating, as have 
commodity prices. But these problems are not due simply to extreme 
weather or trade policies. The world of agriculture and America's place 
in it are changing rapidly.
    When I started teaching my course in 1985, I would say with pride 
that the U.S. produced more than 50% of the world's corn and soybeans. 
Today we produce about 34%. This reduction is not because we are 
producing less, in fact, we are producing more than ever. The reduction 
is because our competitors are producing much, much more. We can't 
produce our way out of this dilemma, and so in order to save our family 
farms and improve our environment we need more publicly-funded 
agricultural research. Not just production research, but economic 
research, utilization research, agroecological research, and more. I 
believe that the proposed relocation of the National Institute of Food 
and Agriculture and the relocation and reorganization of the Economic 
Research Service will diminish our agricultural research capacity at 
one of the most critical times in U.S. agriculture in recent history.

    Specific areas of concern. 

  1.  The continued reduction in American food and agriculture public 
            research capacity. As reported in 2017, China has overtaken 
            the United States as the top government funder of 
            agriculture research. I have visited China a number of 
            times over the last 15 years. The investments in 
            agricultural research infrastructure and people is 
            astonishing. They have created an agricultural research 
            juggernaut. Simultaneously, the two USDA Budget proposals 
            released during Secretary Perdue's tenure (FY 2019 Budget 
            and FY 2020 Budget) proposed significant reductions to the 
            USDA Research, Education, and Extension budget. ERS was hit 
            particularly hard in the Administrations FY 2020 Budget, 
            with a proposed 30% cut to the overall ERS budget and a 52% 
            cut to ERS staff years. Further, the USDA's science 
            agencies have been chronically under-funded for many years. 
            For example, in 2016 the Agriculture and Food Research 
            Initiative (AFRI) only awarded 24% of the grant 
            applications it received. A 2013 grant panel on which I 
            served as panel manager could fund only seven out more than 
            90 submitted proposals. Despite this, the scientists and 
            staff continue to provide great service to the American 
            people. It is entirely unclear how a relocation that will 
            cost both time and money will improve the ERS or NIFA, 
            particularly when resources for both are already stretched 
            so thin. Indeed, the reason I agreed to come here is that I 
            believe, as do many of my colleagues, that moving NIFA and 
            ERS would harm U.S. agricultural research and reduce the 
            vital services that they provide to U.S. farmers and 
            eaters.

  2.  The reduction in service and information exchange with other 
            agencies, constituents, and farmers.

        Communication with other agencies: As mentioned above, in my 
            role as a public plant breeder and agricultural researcher, 
            I have interacted frequently with NIFA staff. I have 
            received funding through various programs, including the 
            Agriculture and Food Research Initiative (AFRI), the 
            Specialty Crops Research Initiative (SCRI), and the Organic 
            Research and Extension Initiative (OREI). I have also 
            received grants from the National Science Foundation (NSF) 
            and many of my agricultural colleagues receive grants from 
            the National Institute of Health (NIH), the Environmental 
            Protection Agency (EPA), and the Department of Energy 
            (DOE). All of these agencies and departments have specific 
            mandates and responsibilities, but they often work on 
            overlapping issues, in a synergistic way, producing novel 
            solutions to challenges that farmers face on a daily basis. 
            All of this collaboration contributes to publicly-funded 
            agriculture research being at the forefront of solutions to 
            modern challenges. Yet it is easy to see that if NIFA was 
            moved out of the National Capital Region this collaboration 
            could be severely limited. For example, NIFA could not as 
            easily participate in White House or interagency meetings 
            related to science and agriculture. This would result in 
            NIFA--and consequently millions of farmers, research, and 
            eaters--losing their place at the table.
        Furthermore, the data generated by NIFA and ERS, especially 
            ERS, is critical to the work of other government agencies, 
            to Congress, researchers, industry, and to farming 
            organizations. Scientists rely on this data for 
            understanding problems, and predicting needs and trends 
            that inform our priorities. There is substantial concern 
            that this relocation will dramatically decrease staff 
            capacity to carry out this important work.
        In summary, coordination and collaboration with other agencies 
            and departments, including statistical agencies, is 
            essential to NIFA and ERS's work. These collaborations will 
            be difficult and expensive to accomplish if these agencies 
            are relocated outside the National Capital Region.
        Communication with constituents and farmers: NIFA and ERS work 
            with other agencies as mentioned above, but also with non-
            Federal researchers, NGOs, advocacy groups, farm groups, 
            and basically anyone who wants to contact them.
        Over the years I have been involved in the NIFA granting 
            process, as have many colleagues. Often, to inform USDA 
            agencies or groups of key agricultural priorities, groups 
            will organize conferences in Washington, D.C. to discuss 
            critical research needs. When I have been involved in such 
            conferences, we have invited farmers and other non-
            researchers from throughout the country, so that their 
            voices could be heard. We also invite researchers and 
            managers from relevant Federal agencies as well as Members 
            of Congress so that everyone who wishes to participate can 
            be at the table.
        These meetings are very valuable in that diverse perspectives 
            are shared and important contacts are made. Most 
            organizations, businesses, and universities don't have the 
            resources to fly to various parts of the country to meet 
            with different Federal Governmental staff, especially if 
            they wish to fund farmer trips. Relocation would make it 
            difficult for agricultural organizations and businesses to 
            efficiently meet with multiple agency staff and decision 
            makers in the National Capital Region, thus limiting 
            communications and in many cases cutting off a critical 
            feedback loop.

  3.  Perceived Regional Biases and Politicization of ERS: Having had 
            the honor of serving as an AFRI grant panel manager (the 
            person who cho[o]ses other panelists and assigns proposals 
            for review), I know first hand how hard the national 
            program leaders work to make sure that is no hint of bias 
            or favoritism. This is not just toward research proposals 
            from colleagues of panelists, but making sure there is no 
            hint of bias regarding national regions, states, ethnic 
            diversity, and other factors. This is very important and I 
            admire the effort to keep things as fair as possible.

        There are marked differences in agricultural production across 
            the U.S. By moving the agencies outside Washington some 
            types of agriculture may be favored over others when it 
            comes to research and funding. Even favoritism is untrue it 
            is likely that some will see bias. Keeping the agencies in 
            Washington helps ensure prioritization of all types of 
            agricultural research and maintains trust in the fairness 
            of the granting process.
        Furthermore, while this hearing is primarily focused on the 
            physical relocation of ERS and NIFA--it is important to 
            note the politicization of agriculture research that could 
            result from moving ERS to the Office of the Chief Economist 
            (OCE). Moving ERS into the OCE within the Office of the 
            Secretary would have lasting and negative impacts on 
            scientific and statistical integrity and runs contrary to 
            the 1994 USDA Reorganization Act.

  4.  The loss of institutional knowledge and highly qualified staff at 
            NIFA and ERS. The scientists and staff I know are 
            professional, hard-working, and committed to the missions 
            of ERS and NIFA. They have tremendous institutional 
            knowledge and an understanding of how to provide the best 
            service they can to the farmers, citizens, and 
            constituents. It is my understanding that the 
            reorganization proposal has already caused staff to leave 
            USDA in significant numbers. While I don't know any one 
            personally who has left, I do know many people are under a 
            great deal of stress due to the unknown and due to the fact 
            that they are working in low-staffing conditions and with 
            low staff morale. I think it is very unfortunate that 
            dedicated public servants have to undergo these conditions 
            when, to my knowledge no one has provided data on how these 
            agencies and their farmers would benefit from this move.

    To summarize: I see serious downsides of the proposal to move NIFA 
and ERS out of the National Capital Region. I am very concerned about 
the diminishment of the voice of the agricultural research community in 
the national agenda, and I am very concerned about the potential for 
regional biases hurting the NIFA's standing in the community. At that 
same time, I have heard no compelling justification or benefit by 
following through on this plan. Thank you for your attention, and I 
look forward to answering your questions.

    The Chair. Thank you very much.
    And to our third witness, Ms. Brownlee, welcome again, and 
please begin.

         STATEMENT OF ELIZABETH J. BROWNLEE, OWNER AND 
  OPERATOR, NIGHTFALL FARM; PRESIDENT, HOOSIER YOUNG FARMERS 
     COALITION; MEMBER, NATIONAL YOUNG FARMERS COALITION, 
                       CROTHERSVILLE, IN

    Ms. Brownlee. I would like to thank Chair Plaskett, Ranking 
Member Dunn, and Members of the Subcommittee for having me 
today. My name is Liz Brownlee, and I operate Nightfall Farm in 
Crothersville, Indiana, with my husband Nate.
    We run our business on my family's 250 acre farm, and this 
is our sixth season raising pastured livestock. We are members 
of the National Young Farmers Coalition and the Indiana Farmers 
Union, and we recently helped found the Hoosier Young Farmers 
Coalition. We have been at it for 3 years being a local chapter 
of the National Young Farmers Coalition, and I now serve as 
President.
    As a beginning farmer, that is someone in their first 10 
years farming, I am concerned that relocating ERS and NIFA may 
negatively impact farmers and ranchers. Relocating ERS and NIFA 
will make it more challenging for farm groups to collaborate 
with these agencies, and it may jeopardize your ability to 
craft evidence-based effective policy for farmers like me.
    The work these agencies do is critical to the next 
generation of farmers, and I want to tell you about that. We 
face serious obstacles to launching and growing our farm 
businesses. My parents grew up on farms. They bought our farm 
in 1971, and with the 1980s farm crisis, they couldn't make the 
farm profitable. They stopped farming the land and started 
renting it out, but I had a shot, and I started farming our 
land in 2014.
    But new farmers, like me, we are urgently needed. The 
average farmer is 59, as you probably know, and farmers over 65 
actually outnumber farmers under 35 by six to one. That is a 
problem for our country. But young farmers can't find and 
afford farmland, student debt is crippling our ability to 
capitalize our businesses, and increasingly severe weather is 
making it harder to farm.
    Moving ERS and NIFA outside of D.C. is only going to make 
it more difficult for Congress and USDA to respond to these 
challenges. And in my written testimony, I talk about the 
problems with relocating ERS, like delays to urgently needed 
research on climate change and farmland access. But I would 
like to focus my conversation today on NIFA.
    NIFA's structure and location already work effectively for 
farmers like me. I have worked with two other grant programs, 
BFRDP, that is the Beginning Farmer Rancher Development 
Program, and SARE, that is the Sustainable Agriculture Research 
and Education program.
    My husband and I worked on farms in Maine and Vermont for 
about 5 years. And then when we moved home to Indiana to farm, 
the BFRDP program was critical to us launching our business. We 
learned about grazing practices and marketing and business plan 
development, but we also learned that there were farmers from 
all across Indiana running thriving farm businesses. And we 
realized that this connection with other farmers, a chance to 
learn together was critical, and we needed more of it. Farmers 
learn best from their peers. We launched the Hoosier Young 
Farmers Coalition to create a space for farmers to learn 
together, with help from the BFRDP and the SARE grant.
    In our first year, we organized over 20 events and we 
reached 800 Hoosier farmers, and today, we host potlucks and 
farm tours and policy roundtables, and we regularly reach over 
1,100 Hoosier farmers and food advocates. And the BFRDP and 
SARE grants helped us create a space for farmers to learn and 
have a sense of camaraderie as we build Indiana's food economy.
    But, NIFA helps make these grants a reality, but we never 
called NIFA to have these grants, right. We worked with local 
partners, our land-grant universities and local SARE officials. 
NIFA kept working hard in D.C. Moving NIFA might make it harder 
for stakeholders to work with them. Even if NIFA and ERS were 
in Indiana, I wouldn't interact with them regularly. I need to 
be on my farm, running my business.
    That is why I am a member of the Young Farmers Coalition 
and the National Farmers Union. They amplify my needs and my 
voice along with other farmers from all across the country, and 
they work with NIFA and ERS and other parts of the USDA. This 
equation stops working if NIFA and ERS are moved out of D.C. 
The farmer organizations that I belong to can't simply up and 
establish a second and third office in Kansas City and Indiana. 
That is inefficient and financially wasteful.
    It is especially true for groups that serve under-served 
farmers, like beginning farmers and socially disadvantaged 
farmers. These farmers need their voices heard by Congress and 
USDA. It is logical to keep these agencies in Washington, D.C., 
where policymaking happens.
    It is critical for this Subcommittee and other Members of 
Congress to ensure that USDA is creating sound science working 
closely with researchers like Dr. Payne and Dr. Tracy and 
addressing urgent research needs that farmers like me need to 
be in the farm bill.
    I don't need NIFA and ERS in my community. I do need NIFA 
and ERS working hard for me in Washington, D.C., and serving 
policymakers like you. This work is best done in our nation's 
capital.
    Thank you for your time and the opportunity to testify 
today.
    [The prepared statement of Ms. Brownlee follows:]

   Prepared Statement of Elizabeth J. Brownlee, Owner and Operator, 
  Nightfall Farm; President, Hoosier Young Farmers Coalition; Member, 
          National Young Farmers Coalition, Crothersville, IN
    First, I would like to extend my thanks to Chair Plaskett, Ranking 
Member Dunn, and the Members of the Subcommittee for the invitation to 
testify here today. Thank you for holding this hearing and for the 
opportunity to provide a perspective on the importance of agricultural 
research and its importance for new and beginning farmers, such as 
myself.
Nightfall Farm and the Hoosier Young Farmers Coalition
    I am Liz Brownlee. I operate Nightfall Farm in Crothersville, 
Indiana, with my husband, Nate. We are lucky to run our business on my 
family's farmland, consisting of 250 acres of forest, pastures, and 
wetlands. This is our sixth season raising pastured livestock, and we 
practice rotational grazing to build healthy soils on our pastures. We 
sell meat to chefs and directly to consumers at farmers markets and 
through our community supported agriculture program. We are also both 
members of the National Young Farmers Coalition (Young Farmers) and 
National Farmers Union (NFU). We helped found the Hoosier Young Farmers 
Coalition, our local chapter of the National Young Farmers Coalition, 
and I now serve as President. The Hoosier Young Farmers Coalition is a 
group of young farmers and food advocates working to recruit, support, 
and promote young and beginning farmers throughout the state of 
Indiana. Our members raise vegetables, livestock, grain, and many other 
products to sell to both local and international commodity markets.
New and Beginning Farmers
    As a beginning farmer, I am concerned about the impact to farmers 
and ranchers that may come with the relocation of the Economic Research 
Service (ERS) and the National Institute [of] Food and Agriculture 
(NIFA), two key agencies producing research and administering programs 
that are critical to the success of the next generation. The relocation 
of ERS and NIFA will make it more challenging for farm groups to 
collaborate with these agencies and may jeopardize the ability of 
policy makers in Washington, D.C. to craft evidence-based, effective 
policy solutions for the next generation of farmers and ranchers.
    Young and beginning farmers face serious obstacles to launching and 
growing their farm businesses. I grew up on my family's farm, but from 
day one there was a clear message: you can't make a living farming. My 
parents both grew up on farms and bought our 250 acre farm in 1971. 
They raised corn, beans, cattle, and hay until the early 1980s. In the 
1980s farm crisis, they could not make the farm profitable, and started 
renting the land instead of farming it themselves. Although I was a 4-H 
member and an officer in Future Farmers of America (FFA), becoming a 
farmer was never discussed as a viable career option. Farms and small 
towns in Indiana were dying, not prospering. I was encouraged to get an 
education, and I assumed that I would leave Indiana when I became an 
adult.
    Although the 1980s farm crisis has ended, I face different 
challenges from my parents' farming generation. The average age of a 
farmer is now 59, and farmers over 65 outnumber farmers under 35 by six 
to one.\1\ Young farmers cannot find or afford farmland; student debt 
is compromising our ability to capitalize our businesses; adequate 
labor and staff are difficult to recruit; health insurance is 
unaffordable; and increasing severe and unpredictable weather make 
production more challenging than ever.\2\ Federal and state policies 
are not adequately addressing our needs, and many young farmers are not 
accessing the programs designed to help.
---------------------------------------------------------------------------
    \1\ USDA National Agricultural Statistics Service. 2017 Census of 
Agriculture.
    \2\ National Young Farmers Coalition. Building a Future with 
Farmers II: Results and Recommendations from the National Young Farmer 
Survey. 2017.
---------------------------------------------------------------------------
    The ability of Congress and the U.S. Department of Agriculture 
(USDA) to respond to our challenges will only be delayed and made more 
difficult with the relocation of ERS and NIFA. Farmers and ranchers are 
often not working directly with these agencies, but have a stake in the 
work that they do. NIFA houses a number of key programs for beginning 
farmers such as the Beginning Farmer and Rancher Development Program 
(BFRDP), the Sustainable Agriculture Research and Extension (SARE) 
grant program, and the Beginning Farmer and Rancher Advisory Committee. 
ERS is leading research critical to the agricultural economy, measuring 
the economic impacts of USDA conservation programs and demographic 
trends in rural America, to name a few. Their research will shape 
farming and farm policy for decades to come.
National Institute [of] Food and Agriculture Grant Programs
    Two grants administered by NIFA were instrumental in the creation 
of the Hoosier Young Farmers Coalition, the Beginning Farmer and 
Rancher Development Program (BFRDP) and a Sustainable Agriculture 
Research and Education grant (SARE). These two programs helped build 
the Hoosier Young Farmers Coalition into a statewide network of farmers 
who can learn together to build better businesses, contribute to their 
local economies, and grow quality food for Indiana. We are working to 
make our communities in Indiana stronger, more vibrant, and healthier. 
The story of our Coalition's origin perfectly illustrates how NIFA 
programs are helping farmers and why NIFA is most effective when it is 
located in Washington, D.C.
    My husband and I started working on farms in Maine and Vermont, and 
we fell in love with farming. We decided to move home to Indiana, to 
put our new skills to work for our community. We knew it would be 
difficult to turn my family's corn and soybean fields into a thriving 
farm business, and we knew that the local food economy in Indiana was 
not as mature as those in the Northeast. But when we moved home, we 
quickly realized that our biggest need was for a community of 
sustainable farmer peers to share with and learn from. Without the NIFA 
programs to help build that community, our farm would not have 
prospered.
    We found other beginning farmers in Indiana thanks in large part to 
a program funded by BFRDP. The grant funded a series of farm field 
tours, conferences, and other activities, where we met and learned from 
other beginning and experienced farmers. We learned about grazing 
practices, marketing strategies, and business plan development, all of 
which we have used on our farm. But more importantly, we quickly 
realized how many other beginning farmers were out there, running 
thriving businesses across Indiana. We realized how much we needed this 
connection with other farmers, to learn together and from one another. 
Farmers learn best from their peers. As the BFRDP grant came to a 
close, we launched the Hoosier Young Farmers Coalition, a chapter of 
the National Young Farmers Coalition. Our goal was to create an ongoing 
community of farmers to continue to build our knowledge and Indiana's 
local food system.
    The BFRDP grant still had funds available to help build farmer 
groups' capacity, and these resources made our chapter possible, in 
combination with a SARE grant, in 2017. BFRDP funds helped create our 
website, e-newsletter, and promotional materials. The grant also funded 
our first events and allowed us to bring beginning farmers together to 
learn and connect. Last but not least, BFRDP funds paid for our 
leadership team to set out a plan of action for how to build up the 
beginning farmer community in Indiana so that our farm businesses could 
thrive.
    BFRDP and SARE have continued to be an asset to our chapter. Funds 
from those programs helped us lay a strong foundation. In our first 
year, we were able to organize almost 25 events and engage with over 
800 Hoosier farmers. Today, we work with farmers across the state with 
a small board run by young farmers and ranchers. We host potlucks, farm 
tours, and policy round tables. We cosponsor conferences where farmers 
gather and learn, and offer scholarships to other farming conferences. 
The BFRDP and SARE grants provide opportunities to beginning farmers to 
network with other farmers and learn skills to take back to the farm to 
improve their business. Most importantly, we are creating a space for 
farmers to find a sense of camaraderie as we build Indiana's food 
economy. BFRDP and SARE are two of the most critical farm bill programs 
for beginning farmers, because they are targeted at building the next 
generation.
    We have also utilized SARE on our farm. Last year, my husband and I 
received a SARE Farmer-Rancher grant to examine the feasibility of 
opening a butcher shop to support farmers who sell directly to 
customers. Access to quality meat processing is a problem throughout 
the Midwest. We are partnering with nearby farmers and a chef, and hope 
to open the butcher shop in 2020. All of our research (floor plans, 
cash flow analysis, etc.) will be open source and available for other 
farmers to utilize in their own communities. NIFA helps make these 
grants a reality--but we never called NIFA. We worked with regional 
SARE staff to ask questions as we crafted our grant application, and 
recently, when they were doing site visits to learn from local grant 
recipients, it was local SARE staff who visited our farm, not NIFA 
staff from D.C.
    USDA has proposed that the relocation will move NIFA closer to the 
farmers, but I have seen firsthand how NIFA programs already have 
highly effective ways of working closely with farmers. For 3 years, I 
served on the Review Committee for the SARE Farmer-Rancher grant. I was 
one of about 25 farmers that helped select on-farm research projects 
from applicants across the Midwest. This is just one way that NIFA 
programs are already grounded in farming communities: farmers are 
selecting the applied research they need, by region. This system is 
highly effective, and does not require moving an entire USDA agency.
    In fact, moving NIFA may make it harder for stakeholders to work 
with them. I do not regularly take the train to Washington, D.C. to 
testify in front of Congress or meet with USDA. I have too much to do 
on the farm, running our business. Even if NIFA and ERS were located in 
Indiana, I would not have the time for regular engagement with those 
agencies. That is why I am a member of the National Young Farmers 
Coalition and the National Farmers Union. They amplify my needs and my 
voice, along with other farmers from across the country, and work with 
NIFA, ERS, and the other agencies of USDA. This equation stops working 
if the NIFA and ERS offices are moved out of the National Capital 
Region. The farm organizations that I belong to, and others that I 
support, cannot simply establish a second or third office in Kansas 
City or even Indiana. That is inefficient and financially wasteful. 
That is especially true for groups that work with under-served farmers, 
including beginning and socially disadvantaged farmers, and these 
farmers need our voices heard by Congress and USDA. It is logical to 
keep these agencies in the nation's capital, where policy making 
happens, where farmer organizations have established offices, and where 
farmers like me can rest assured that sound research and policy work is 
happening.
Economic Research Service
    I am equally concerned about the relocation and realignment of ERS. 
Their mission is to anticipate trends and emerging issues in 
agriculture, food, the environment, and rural America and to conduct 
high-quality, objective economic research to inform and enhance public 
and private decision making. Currently, they are conducting research on 
beginning farmers and the transition of farm businesses to the next 
generation, as well as the barriers and challenges farmers face in 
finding and affording farmland. They also examine demographic shifts 
and how that impacts rural communities, as well as the efficacy of 
policies designed to protect the environment and combat climate change.
    ERS is working on the challenges farmers and rural communities are 
facing now. This year, we have had to delay our grazing season by a 
month. The grass was green and ready for livestock, but the ground was 
too wet to move the animals from the barn to the pastures. Grain 
farmers in our area are weeks behind in planting because the fields 
have been too wet. While conservation programs can help to mitigate the 
impacts of severe and unpredictable weather, the research ERS does can 
help us better understand the most cost-effective methods to mitigate 
and adapt to a changing climate. These extreme weather events impact my 
finances, and my ability to plan to grow my business.
    In many ways, I am an unusual beginning farmer, because I had 
access to my family's farmland when I wanted to start my business. 
According to the National Young Farmers Coalition 2017 Young Farmer 
Survey, many young farmers do not come from a farming family and do not 
have access to farmland. In fact, land access was the number one 
challenge reported by young farmers. In the 2018 Farm Bill, ERS was 
tasked by Congress to examine the barriers beginning farmers and 
farmers of color face in finding and affording farmland. They are also 
tasked with identifying how Federal programs can reduce those barriers. 
If we want our rural communities to flourish, we need to make land 
affordable and accessible for new farmers, and we need to make sure all 
farmers and ranchers have access to Federal farm bill programs. ERS 
plays a vital role in developing sound, evidence-based policy solutions 
for the challenges young farmers face. To complete this research, ERS 
will need to work with farmers and ranchers all over the country, not 
just in Indiana, and primarily, with policymakers like yourselves.
    Research on these topics is urgently needed, and it is needed by 
policy makers to design policies and programs that will impact my farm 
and my business for decades to come. I do not work directly with ERS, 
but Congressional staff, USDA, and many other Federal agencies do. 
Relocating ERS and NIFA out of Washington, D.C. impacts the ability of 
these agencies to properly do their job, provide quality research to 
policy makers, and may jeopardize your ability to write farm policy 
that supports the next generation. Moving the agencies farther from 
policy makers will only create more silos and disconnects between the 
agencies and policy makers. It will also make it more difficult to 
coordinate with other departments, such as Education or Labor, that are 
end users of ERS and NIFA research products.
    Numerous economists have already left ERS this year. With the lost 
institutional knowledge and staff capacity, it will be more challenging 
for these institutions to complete existing projects and start up new 
ones. In the year following the farm bill, USDA not only has the 
challenge of running programs, but also the challenge of writing new 
regulations and crafting new research projects as mandated in the bill. 
For instance, the Beginning Farmer and Rancher Advisory Committee has 
not met in over a year. This committee advises the Secretary of 
Agriculture about how to equip beginning farmers for success. Our 
country needs all parts of the USDA to function efficiently, but 
especially those impacting the next generation of farmers. Losing key 
staff will only slow down USDA's ability to provide quality research, 
so you, the policy makers, can help farmers like me.
Conclusion
    I, and farmers like me, do not need NIFA and ERS to be in the field 
in my community. I do need NIFA and ERS to be working tirelessly to 
produce the best research, products, and policy to support us in our 
mission to feed our communities. That work is best done in Washington, 
D.C. As the agriculture industry continues to struggle with depressed 
prices, lost market share, and floods and severe weather, I believe it 
is critical for this Subcommittee and other Members in Congress to 
ensure USDA is creating sound science, working closely with all 
stakeholders, and addressing the urgent research needs to shape current 
and future farm bill policies. I need NIFA and ERS to be productive, 
efficient, and effective--and that means they need to be in our 
nation's capital, doing research that serves our nation's farmers. 
Thank you for taking the time to examine how the proposed relocation 
will impact farmers and ranchers, and allowing me the opportunity to 
testify today.

    The Chair. Thank you very much for all of our witnesses for 
your testimony.
    Members are going to be recognized for questioning in the 
order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in order of 
arrival. Since we are anticipating first votes shortly, I 
previously discussed with the Ranking Member limiting questions 
to 3 minutes to ensure we get to as many Members as possible, 
and he has agreed.
    Are there any objections?
    Hearing none, Mr. Yoho, you don't have any objection, do 
you?
    Mr. Yoho. No, ma'am. I was waving to Al.
    The Chair. Oh, okay. Because I know how you like to talk. I 
thought maybe you wanted your 5 minutes.
    But I like his talking. We have great conversations. I 
don't want you all to think that way.
    Hearing none, I will now recognize myself for 3 minutes.
    I wanted to first ask any of the witnesses, in the press 
release, USDA justified the relocation proposal by saying that 
it wanted to move USDA resources closer to stakeholders. To 
date, have you ever felt that you were disadvantaged by ERS and 
NIFA's location in Washington, D.C.? And if any of you can 
respond to that, do you believe that you will be disadvantaged 
or, and conversely, would you be disadvantaged if ERS and NIFA 
moved to smaller cities that are farther from you, and how? Dr. 
Payne?
    Dr. Payne. Yes. I think that is a specious argument because 
NIFA and the ERS has never worked with farmers and ranchers. 
There are extension services in this country almost in every 
county in America. There are over 500 research labs associated 
with 107 land-grant universities. We work with farmers and 
ranchers. NIFA and the ERS works with us.
    Even if it was true, why disadvantage 49 other states and 
put these agencies in one state? But it just doesn't make 
sense.
    Today, agriculture is so interdisciplinary. I come to 
Washington a lot. I come to meet with my Federal partner, NIFA. 
But I also come to meet with the Department of Defense, 
Department of the Interior, EPA, USAID, the Forest Service, my 
Congressional delegation, FDA.
    We get funding from all those agencies and 
interdisciplinary projects, and a lot of times NIFA is the 
convener. They sit with us, the Assistant Secretary of REE, 
they bring in Federal scientists from across the Federal 
spectrum to help us craft our proposals to address the 
interdisciplinary needs of agriculture today.
    The Chair. Thank you.
    Dr. Payne. You are welcome.
    The Chair. Anyone? Dr. Tracy or Ms. Brownlee?
    Dr. Tracy. Yes. I agree with Dr. Payne. Washington, D.C., 
is one of the easiest places to get to in this country. It is 
easier for me to get here than it would be to get to West 
Lafayette, Indiana, from Madison, Wisconsin. I don't really buy 
the distance argument.
    But more importantly, I do agree with Dr. Payne regarding 
the fact that we work with NIFA here, but we come here to talk 
to them and the other agencies. If NIFA was not in Washington, 
we would have to go to wherever it was to talk with them, and 
then we would have to come back here anyway and talk to NIH or 
NSF or Members of Congress. I don't really see this as an 
argument.
    The Chair. Thank you.
    And I am actually running out of time, I will now recognize 
Mr. Dunn, for your 3 minutes, sir.
    Mr. Dunn. Thank you very much, Madam Chair.
    I will be brief. I would like to point to a couple of 
statistics. Out of the 105,000 USDA employees, 97,000 of them 
work outside the National Capital Region. Currently, the 
National Institute of Food and Agriculture and Economic 
Research Service are the only two USDA agencies that do not 
have staff presence outside of the capital region.
    I also want to highlight four letters supporting the 
Secretary's relocation effort and note that we will be 
submitting these for the record. First is a letter by Ranking 
Member Mike Conaway and Representative Vicky Hartzler and 
signed by myself and 29 other Members, including every 
Republican Member of the House Agriculture Committee; a letter 
signed by the bipartisan Indiana Delegation; and a letter 
signed by the bipartisan Members of Kansas and Missouri; and a 
letter signed by the bipartisan group of Members from North 
Carolina.
    And given the timing constraints today, I would like to 
yield the remainder of my time to my colleague from North 
Carolina, Mr. David Rouzer.
    Mr. Rouzer. I thank my friend and colleague from Florida, 
the Ranking Member of the Subcommittee.
    And I want to point out that with every disagreement, there 
is always a really nice, happy compromise. And I have never 
known anybody to not want to come to North Carolina, and 
certainly when they have been to North Carolina and the 
Research Triangle area, they don't want to leave. And the 
statistics show that in terms of the population growth there.
    As most folks know, the Triangle Area is one of the areas 
under consideration for the relocation of both. It is only a 
4.5 hour drive from D.C., hour flight. RDU Airport is right 
there within 20 minutes of the Research Triangle area, just 
minutes of it.
    You have numerous ag biotech companies. NC State's 
Centennial Campus is a real leader in public-private 
partnerships. North Carolina has 47,000 farms growing 90 
different commodities, and more than 400 different soil types. 
It is the perfect place for the relocation if it is to happen.
    And I just appreciate the Ranking Member for allowing me to 
make that quick plug. I have a statement for the record and 
some supporting documents as well that I would like to submit 
for the record at the appropriate time.
    Thank you very much. I yield back.
    [The prepared statement referred to is located on p. 4; the 
letters referred to are located on p. 41.]
    The Chair. Thank you.
    At this time, I will recognize the gentleman from New York, 
Mr. Delgado.
    Mr. Delgado. Thank you, Madam Chair. And I thank each of 
the witnesses for your testimony.
    Ms. Brownlee, last week, I met with my agriculture advisory 
committee in district to talk about issues impacting farmers 
today, and one of the issues that we spoke about is climate 
change and its impact on soil health, an ever-increasing 
problem for farmers, especially young farmers who will be 
dealing with a change in climate for decades to come.
    Today, farmers in the Northeast and Upstate New York, where 
I serve, Hudson Valley, Catskills, as well as the Midwest, are 
weeks behind in planting. With such an urgent need for research 
to help farmers adapt to and mitigate climate change, how would 
this move impact your ability to mitigate climate change on 
your farm?
    Ms. Brownlee. Thank you, Congressman. This move would hurt 
my ability to build my business. Climate change is one of our 
most pressing needs. We need research to address how are we 
going to adapt our farm, what trees should we be planting in 
our orchards, how do we build soil health and sequester carbon 
over the next 3 or 4 decades.
    And the reality is that if these agencies move, their 
research is going to be delayed, which means that answers and 
policies are going to be delayed, and that means that it is 
affecting my bottom line, because I can't respond as quickly if 
I don't have sound science to guide my decisions on my farm.
    We are a month behind in grazing on our farm. We have had 
unceasing rain this spring. Our animals are ready to go out to 
pasture and our grass was as tall as me actually right now 
ready to be grazed, but it is too wet. The grain farmers, the 
commodity farmers around me in southern Indiana, it is the 
same. They are 3+ weeks behind on planting because it is so wet 
because the soils are just saturated.
    We have to figure out how to respond to climate change. It 
is a problem right now, and we need NIFA and ERS working hard 
here in D.C. to make that research available to all of our 
farmers, not just in North Carolina or Wisconsin or Indiana.
    I am not the primary stakeholder of either of these 
organizations. The researchers who are doing the work and you 
all crafting the policy are. I need these groups here helping 
me adapt to climate change.
    Mr. Delgado. I appreciate that.
    I don't have a lot of time, but I do want to squeeze in one 
more question, Dr. Tracy, about the regional bias you talk 
about in your statement. You talk about how the production 
across the different parts of the country are different based 
on the regional makeup of the climate in some regards, right. 
Can you speak a little bit more about the potential for bias by 
taking these programs out of Washington, D.C.?
    Dr. Tracy. The big issue really is the perception of bias 
or perceived bias, in the sense that if they are in Madison, 
nearby the University of Wisconsin-Madison, and folks will 
think that UW-Madison actually has more influence with the 
people who make the decisions about where the grants go.
    This is the biggest granting agency for agriculture. And 
people are people, and people are going to say, ``Oh, those 
Madison folks, they have NIFA in their pocket.'' And I am sure 
they wouldn't. I am sure that wouldn't happen, but that will be 
the perception and the jealousy.
    The Chair. Thank you very much.
    Mrs. Hartzler of Missouri, your time for questioning.
    Mrs. Hartzler. Yes, thank you, Madam Chair.
    And I want to say that being from Missouri and an alma 
mater of University of Missouri, one of the land-grant 
universities in the Midwest, I wholeheartedly support this move 
to bring these agencies out closer to the farmers, closer to 
the consumers. And I am excited about what this can mean for 
our country and in general. Certainly, we have a large pool of 
talented individuals.
    I have a letter here that I would like to submit for the 
record that was received yesterday from four of our land-grant 
universities, including Iowa State University, University of 
Nebraska-Lincoln, Kansas State University, and the University 
of Missouri, in full support of this.
    And they point out in their letter that since 2017, these 
institutions graduated more than 150 Ph.D.s in agriculture, and 
there is no other location in the United States that offers 
such a similar cluster of diversity and qualified employees. 
And I know that has been an issue here. And one of the reasons 
that the Secretary wants to move this agency out is so that we 
can attract the talent to the Midwest that will be important 
for this mission.
    In the Midwest, we have over 400,000 farming operations 
with an average farm size of 600 acres. The Midwest also 
provides savings of low-cost, high quality of life, convenient 
access to transportation, and it just is a very positive 
opportunity that we have.
    And I support what the Secretary is doing, and look forward 
to ensuring that the USDA is the most effective, most 
efficient, and most consumer-focused agency in the Federal 
Government, and trust that the USDA will support its existing 
future employees throughout the process, moving forward.
    And with that, I yield back and submit my letter.
    [The letter referred to is located on p. 40.]
    The Chair. Thank you.
    Without objection, the letter is submitted.
    At this time, Mr. Cox of California, your 3 minutes.
    Mr. Cox. Thank you so much, Madam Chair.
    Public research is a vital partner for American agriculture 
and even so much more so in my district where the majority of 
specialty crops rely on public research and investment to be 
able to readily combat pests, disease, and address changing 
climate conditions.
    And so, really, for each one of the witnesses here today, 
in your opinion, how can we best improve research agencies like 
ERS and NIFA? I mean, is it through relocation outside of 
Washington? Increased funding? And where should we as a 
Subcommittee be focusing our efforts to improve agricultural 
research and best support your work?
    Dr. Payne. I will start. The best way that Congress can 
help solve these problems is to increase the AFRI budget. It is 
really an embarrassment in our country today when food security 
is as challenging and threatening worldwide and to our own 
people that there is over $42 billion in NIH budget to solve 
important things like cancer and heart disease. There is over 
$8 billion in NSF for basic research, but just $440 million in 
AFRI to solve some of the biggest problems we are facing in the 
world. That is the issue.
    We shouldn't be spending money moving our major partner out 
of Washington where over 100 people, scientists have already 
left the agencies, morale is terrible. And it will be years to 
get them back to where they are. Instead, we should all be 
working together to increase the funding for agriculture 
research that NIFA provides land-grant universities.
    Dr. Tracy. Yes. I would like to add to that. And that would 
be my number one thing is increasing the AFRI budget. But I 
will read from my testimony just very briefly.
    ``As reported in 2017, China has overtaken the United 
States as the top government funder of research. I have visited 
China a number of times over the last 15 years. The investments 
in agricultural research infrastructure and people is 
astonishing.''
    Building new universities, total campuses where they did 
not exist before are there now. And it is all about agriculture 
for them. And we are falling behind, and they are a juggernaut. 
And they are rising in terms of agricultural research, and we 
are falling back.
    I would also point out that in 2013, I was a grant panel 
manager for AFRI, and that year, we received 170 preproposals. 
We knew we could only fund seven grants. We told the folks who 
put in the preproposals that we could only fund seven, so we 
got 90 proposals, full proposals. We could still only fund 
seven. And we let many good grant proposals go by.
    Ms. Brownlee. I would just like to add that I need you to 
invest in beginning farmers and carry out the promises to 
beginning farmers from the 2018 Farm Bill.
    Thank you.
    Mr. Cox. Thank you.
    The Chair. I just want you all to know that they have 
called votes, and I understand that there are quite a number of 
Members that are going on CODELs immediately after the votes. 
We are going to ask Members to submit their questions for the 
record, and we will adjourn.
    But I just wanted to leave with some quick closing remarks 
and allow the Ranking Member, if he has any, as well.
    The hearing takeaways that I have at this time is that the 
proposal is not supported by its stakeholders. Individuals who 
are going to be in the areas where the research are--may be 
supportive of this; but generally, particularly small farmers, 
disadvantaged farmers, and those who need these agencies to be 
here in Washington, to be their voice, to be the research, to 
do the rapid research, are concerned.
    Benefiting one state will disadvantage others, and all 
stakeholders depend on objective, impartial research. We should 
be fully staffing agencies, not increasing staffing losses 
through misguided relocations.
    And I am grateful to you all for your testimony, for being 
with us here this morning.
    And, Mr. Dunn, if you have any closing statements you would 
like to make?
    Mr. Dunn. Thank you very much, Madam Chair.
    I just want to respond to one comment I heard here today 
that there won't be anybody left in D.C. to visit. That is not 
true. The Secretary has already said the agency leadership will 
remain in Washington, D.C., and I encourage the Secretary to 
move forward on his work and applaud his efforts.
    And with that, I yield back.
    The Chair. As I stated earlier, the record will remain open 
for 10 calendar days for individuals to submit questions, 
statements. And this meeting is adjourned. And we ask that you 
all have a pleasant afternoon.
    [Whereupon, at 10:11 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Letter by Hon. Kim Schrier, a Representative in Congress from 
                               Washington
December 14, 2018 \1\
---------------------------------------------------------------------------
    \1\ This letter was originally sent November 27 with 21 signers. It 
is being updated as additional signers are added. The current count is 
81. Note also an identical version of this letter has been sent to 
appropriators (https://www.amstat.org/asa/files/pdfs/BuchananWoteki
BlueRibbonPanel.pdf).

 
 
 
Hon. K. Michael Conaway,             Hon. Collin C. Peterson,
Chairman, Committee on Agriculture,  Ranking Minority Member, Committee
                                      on Agriculture,
United States House of               United States House of
 Representatives,                     Representatives,
Washington, D.C.;                    Washington, D.C.;
 
Hon. Pat Roberts,                    Hon. Debbie Stabenow,
Chairman, Committee on Agriculture,  Ranking Minority Member, Committee
                                      on Agriculture,
United States Senate,                United States Senate,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairs Roberts and Conaway and Ranking Members Stabenow and 
Peterson,

    We write to express our profound concern for USDA's plan to 
relocate the Economic Research Service (ERS) and the National Institute 
of Food and Agriculture (NIFA) outside of Washington, D.C. and to 
realign ERS out of the USDA Research, Education, and Economics (REE) 
mission area. We believe the restructuring will undermine our food and 
agriculture enterprise by disrupting and hampering the agencies' vital 
work in support of it--through research, analyses, and statistics. We 
are also deeply troubled such a major upheaval of the USDA research arm 
would be carried out with such haste and without the input and prior 
consultation of the USDA research stakeholders.
    In the best interests of American agricultural, food, and rural 
sectors, we respectfully request that you intervene to stop the 
restructuring of REE at least until there has been a comprehensive 
independent study and full consultation with the stakeholder community.
    We write from the perspective of current and former university 
agricultural administration leaders and former USDA chief scientists. 
Our positions in land-grant universities (LGUs) as well as our broader 
experience and leadership in food and agriculture provide us a unique 
and important perspective on the U.S. food and agriculture enterprise. 
LGUs and the broader academic network work hand in hand with the USDA 
to identify priorities, carry out research and analysis, and 
disseminate results to the broader community. An integral part of 
USDA's support for our food and agriculture enterprise along with ERS, 
NIFA takes an integrated approach to support programs to find 
innovative solutions to the most pressing local and global problems to 
ensure the long-term viability of agriculture.\2\ The mission of ERS 
complements that of NIFA by anticipating ``trends and emerging issues 
in agriculture, food, the environment, and rural America and to conduct 
high-quality, objective economic research to inform and enhance public 
and private decision making.'' \3\
---------------------------------------------------------------------------
    \2\ https://nifa.usda.gov/about-nifa.
    \3\ https://www.ers.usda.gov/about-ers/.
---------------------------------------------------------------------------
    Through the partnership of LGUs, USDA, other Federal research 
funding agencies, and the private sector, agricultural research has 
increased many-fold the productivity of our farms and farmers, despite 
the continual challenges of disease, pests, extreme weather, and 
invasive species. The progress and accomplishment are by design, 
through the leadership and vision of many in the USDA, LGUs, and larger 
private-sector community over the past many decades.
    The engagement of the broader scientific funding research 
community--the National Science Foundation (NSF), the USDA Agricultural 
Research Service (ARS), the National institutes of Health (NIH), and 
many more--has also been integral to the impressive progress. For 
example, NIFA partnered with NSF, NIH, and the Department of Energy to 
launch the Plant Genome Initiative. This initiative has sequenced the 
genomes of economically important plants and led to improved bean, 
potato, tomato, wheat and barley cultivars while at the same time 
training thousands of undergraduate and graduate students who will be 
the next generation plant scientists and breeders.
    To further exemplify the advances that have come from multi-agency 
involvement, consider the Porcine Reproductive and Respiratory Syndrome 
(PRRS) virus, which was first detected in the U.S. in 1987 and that 
costs North American farmers more than $660 million annually. A 
collaborative effort between land-grant universities and the private-
sector supported by NIFA and NSF has resulted in the breeding of pigs 
that are not harmed by the disease. Another example is a university-ARS 
collaboration supported by USDA-ARS, NIFA, and other Federal funding 
agencies to create soybean oil with no trans-fats.
    The advances that have occurred because of the close collaboration 
of numerous research funding agencies have been greatly facilitated by 
their proximity. This is because of the close collaboration that must 
occur between the agencies, researchers, and university leaders like 
ourselves. University agricultural leaders and researchers make regular 
visits to Washington, D.C. to meet with USDA offices, research funding 
agencies, our Congressional delegations, and other farm and research 
organizations based or meeting in Washington. Locating NIFA outside the 
Washington, D.C. area will hamper our work and the effective 
integration of NIFA with other research agencies and stakeholders.
    Such integrative science is essential for meeting the challenges of 
the next 50 years. For example, NIFA is currently partnering with NSF 
on an Initiative at the Nexus of Food, Energy and Water Systems to 
significantly advance our understanding of how these three interrelated 
systems interact and function with the objective of increasing their 
resilience and ensuring long-term sustainability.
    We are also concerned the relocation of NIFA will undermine USDA 
funding of research, which has stagnated for the last 40 years. Since 
1976, it has lost \2/3\ of its purchasing power.\4\
---------------------------------------------------------------------------
    \4\ https://www.aaas.org/sites/default/files/s3fs-public/
TotRes%253B.xlsx.
---------------------------------------------------------------------------
    With NIFA being relocated outside of Washington, we worry it will 
become less relevant and therefore more susceptible to further 
degradation of its budget.
    In addition, the relocations are likely to weaken the coordination 
of NIFA and ERS with their sister REE agencies, the ARS and the 
National Agricultural Statistics Service. This would set back the work 
of Congress over several farm bills and appropriations bills to ensure 
more coordination and integration between the agencies. Equally 
important, it will remove ERS and NIFA from the important role of 
bringing science to bear on the work of the USDA frontline program 
agencies, all of which will also remain in Washington. Separating the 
agencies between a new location and Washington, D.C., with leadership 
and some staff of each agency being kept close to USDA headquarters, 
could also undermine the respective internal operations and 
coordination.
    For the ERS specifically, we believe the relocation will set back 
the agency for 5-10 years and undermine its independence as a Federal 
statistical agency. In a major relocation, there will be substantial 
staff loss because of either an unwillingness or other preventing 
circumstances to move. Given the ERS's highly specialized work, it will 
be a long process to replace the loss of experience and expertise. We 
also believe ERS's work is served well in D.C. where its many of its 
primary audiences, partners, and collaborators are located.
    ERS also thrives both in its independence and its work in REE 
thanks to the leadership of the USDA chief scientist and the synergies 
it enjoys with the other REE agencies. Congress was wise in placing ERS 
within REE, and it would be most unfortunate to allow that deliberative 
choice to be undone by administrative fiat.
    Given the decades of planning and adjustments to optimize the work 
of REE, we are troubled the USDA seeks to dismantle the research arm in 
such a major way in a matter of months without a confirmed chief 
scientist, consultation of current or former REE, NIFA, and ERS 
leaders, prior engagement and input of the greater research community, 
and other good-government procedures. Indeed, there seems to be little 
evidence of any planning or study before the announcement to make the 
relocation.
    Making changes in a successful enterprise should be based on two 
criteria: (i) to fix a real problem that jeopardizes future success; or 
(ii) to ensure further improvements for the system. The ERS-NIFA moves 
satisfy neither. In addition, stakeholders have been waiting for a 
cost-benefit analysis of the proposal to be presented and an 
explanation of how this move relates to REE's existing long-term 
strategic plan. For these reasons, it is premature to allow any final 
action to be taken in the absence of basic good government practice.
    In closing, as leaders in the USDA agricultural research 
partnership committee, we have deep concerns about USDA's upheaval of 
its research mission area without broader consultation. The Research, 
Education, and Economics mission reached its current make-up following 
years of planning, adjustments, and optimization informed by 
consultation, study, and public comment. We see no justification that 
it should be restructured on such a large scale on USDA's short 
timeline and without proper study.
    We urge you to intervene to ensure the integrity of our food and 
agriculture enterprise over the next 50 years.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Gale Buchanan,
Former USDA Chief Scientist and Under Secretary of Agriculture for 
    Research, Education & Economics; Dean and Director Emeritus, 
    University of Georgia, College of Agricultural and Environmental 
    Sciences
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Catherine E. Woteki,
Former USDA Chief Scientist and Under Secretary of Agriculture for 
    Research, Education & Economics
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Roger Beachy,
Former USDA Chief Scientist and Director of National Institute of Food 
    and Agriculture
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Sonny Ramaswamy,
Former Director of National Institute of Food and Agriculture

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

David Ackerly,
Dean, College of Natural Resources, University of California, Berkeley

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Theodore G. Andreadis,
Director, The Connecticut Agricultural Experiment Station


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Aufa'i Apulu Ropeti Areta
Agriculture, Community and Natural Resources Division (Land-Grant 
    Program), American Samoa Community College
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Dan Arp,
Dean Emeritus, College of Agricultural Sciences, Oregon State 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Ken Blemings,
Interim Dean, Davis College of Agriculture, Natural Resources, and 
    Design, West Virginia University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Kathryn J. Boor,
Robert P. Lynch Dean, College of Agriculture & Life Sciences, Cornell 
    University 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Charles Boyer,
Vice President for Agriculture, Dean, and Director, Montana State 
    University College of Agriculture

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Douglas D. Buhler,
Director, MSU AgBioResearch & Assistant Vice President for Research and 
    Innovation, Michigan State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Daniel Bush,
Vice Provost for Faculty Affairs, Colorado State University

Neville Clarke,
Director Emeritus, Texas Agricultural Experiment Director; Former 
    Executive Director, Southern Association of State Agricultural 
    Experiment Station Directors; Chair, Experiment Station Committee 
    on Organization and Policy (ESCOP)

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Mark J. Cochran
Vice President for Agriculture, University of Arkansas System

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Nicholas Comerford,
Dean and Director for Research and Cooperative Extension, College of 
    Tropical Agriculture and Human Resources, University of Hawai`i at 
    Manoa

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Nancy M. Cox,
Dean, College of Agriculture, Food and Environment, University of 
    Kentucky

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Gerard D'Souza,
Dean and Director of Land Grant Programs, Prairie View A&M University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Helene Dillard,
Dean and Professor, College of Agricultural and Environmental Sciences, 
    University of California, Davis

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Dan Dooley,
Former Vice President, Agriculture and Natural Resources; Former Senior 
    Vice President for External Relations, University of California

Robert Easter,
President Emeritus; Dean Emeritus College of Agricultural, Consumer and 
    Environmental Sciences, University of Illinois

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Cameron Faustman,
Interim Dean, College of Agriculture, Health and Natural Resources, 
    University of Connecticut
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
John D. Floros,
President, New Mexico State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Robert Godfrey,
Director, Agricultural Experiment Station, University of the Virgin 
    Islands

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Robert M. Goodman,
Executive Dean, School of Biological and Environmental Sciences, 
    Rutgers, The State University of New Jersey

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Alan L. Grant,
Dean, College of Agriculture and Life Sciences, Virginia Tech

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Jim Hanson,
Associate Dean and Associate Director, University of Maryland Extension

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Ronald Hendrick,
Dean, College of Agriculture and Natural Resources, Michigan State 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Bret W. Hess,
Interim Dean, College of Agriculture and Natural Resources; Director, 
    Wyoming Agricultural Experiment Station, University of Wyoming

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Walter A. Hill,
Vice Provost, Dean, College of Agriculture, Environment and Nutrition 
    Sciences, Research Director and Extension Administrator, Tuskegee 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Glenda Humiston,
Vice President, Agriculture and Natural Resources, Director of the 
    Agricultural Experiment Station, Director of Cooperative Extension, 
    University of California


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Jody Jellison,
Director, UMass Extension; Director, Massachusetts Agricultural 
    Experiment Station; Assistant Vice Chancellor, Agricultural 
    Research and Engagement, University of Massachusetts

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Moses T. Kairo,
Dean, School of Agricultural and Natural Sciences, University of 
    Maryland Eastern Shore

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Govind Kannan,
Former Dean, College of Agriculture, Family Sciences and Technology, 
    Fort Valley State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
John Killefer,
South Dakota Corn Endowed Dean, College of Agriculture, Food & 
    Environmental Sciences, South Dakota State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
John Kirby,
Dean, College of the Environment and Life Sciences and Director, 
    Agricultural Experiment Station and Cooperative Extension, 
    University of Rhode Island

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Cathann A. Kress,
Vice President for Agricultural Administration and Dean, College of 
    Food, Agricultural, and Environmental Sciences, The Ohio State 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Michael D. Lairmore, D.V.M., Ph.D.,
Dean and Distinguished Professor, School of Veterinary Medicine, 
    University of California, Davis

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Daryl Lund,
Former Dean of Agricultural and Natural Resources, Rutgers University & 
    Cornell University; Former Executive Director of the North Central 
    Regional Association of State Agricultural Experiment Stations

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Michael V. Martin,
President, Florida Gulf Coast University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Ali Mitchell,
Executive Director, Association of Northeast Extension Directors

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Ron C. Mittelhammer,
Dean Emeritus, College of Agricultural, Human and Natural Resource 
    Services, Washington State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Bobby Moser,
Former Vice President, College of Food, Agricultural and Environmental 
    Sciences, The Ohio State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Sabine O'Hara,
Dean, of CAUSES and Land-grant Programs, College of Agriculture, Urban 
    Sustainability and Environmental Sciences (CAUSES), University of 
    the District of Columbia

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Jack Payne,
Senior Vice President, Institute of Food and Agricultural Sciences, 
    University of Florida

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Thomas L. Payne,
Vice Chancellor and Dean Emeritus, College of Agriculture, Food and 
    Natural Resources, University of Missouri

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
William A. Payne,
Dean, College of Agriculture, Biotechnology and Natural Resources, 
    University of Nevada Reno

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Barbara Petty,
Associate Dean and Director of Extension, University of Idaho

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Chandra Reddy,
Dean and Director of Research/Administrator of Extension, College of 
    Agriculture, Human, and Natural Sciences, Tennessee State 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Chuck Ross,
Director, University of Vermont Extension

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Alan Sams,
Reub Long Dean, College of Agricultural Sciences, and Director, Oregon 
    Agricultural Experiment Station, Oregon State University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Eugene G. Sander,
President Emeritus, Former Vice President and Dean for Agriculture and 
    Life Sciences, University of Arizona

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Fred Schlutt,
Vice Provost for Extension and Outreach and Director of Cooperative 
    Extension Service, University of Alaska Fairbanks

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Milo Shult,
Vice President for Agriculture, Emeritus, University of Arkansas

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Robert W. Taylor,
Dean, College of Agriculture and Food Sciences, Florida Agricultural 
    and Mechanical University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Andrew J. Thulin,
Dean, College of Agriculture, Food, and Environmental Sciences, 
    California Polytechnic State University

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Thomas Vogelmann,
Dean, College of Agriculture and Life Sciences, University of Vermont

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Christopher B. Watkins,
Associate Dean, College of Agriculture & Life Sciences and College of 
    Human Ecology and Director, Cornell Cooperative Extension, Cornell 
    University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Lynn Wooten,
Dean, The Charles H. Dyson School of Applied Economics and Management, 
    Cornell University

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Jon Wraith,
Dean, College of Life Sciences and Agriculture and Director, NH 
    Agricultural Experiment Station, University of New Hampshire

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Andre-Denis Girard Wright,
Dean, College of Agricultural, Human, and Natural Resource Sciences, 
    Washington State University
Delegates to the Council for Agricultural Research, Extension, and 
        Teaching (CARET)

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Nathan Andre, Ohio

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Linda Ameroso, New York

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

James J. Bittner, New York

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

James G. Brown, Jr., Tennessee

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Susan Crowell, Ohio

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

William J. Cutts, New Jersey

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Jeremy Drew, Nevada

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Kristin Hughes Evans, Virginia

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Beatrix Fields, District of Columbia

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Larry Holmes, Virginia

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Terry McClure, Ohio

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Michael A. Mellano, California

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Roberta A. Moseley, New Jersey

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Madeline Mellinger, Florida

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Kenneth Nicewicz, Massachusetts

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Caird Rexroad, West Virginia (also former Associate Administrator, ARS, 
    USDA)
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Christopher M. Streeter, New Hampshire

Eric Tanouye, Hawaii

Oscar Taylor, Texas

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Jake Tibbitts, Nevada
                                 ______
                                 
   Submitted Statement by Hon. Chellie Pingree, a Representative in 
 Congress from Maine; on Behalf of Roger Johnson, President, National 
                             Farmers Union
    Chair Plaskett, Ranking Member Dunn, and Members of the Committee:

    Thank you for holding a hearing to examine the impacts on 
agriculture research that will result from relocating the U.S. 
Department of Agriculture's (USDA) Economic Research Service (ERS) and 
National Institute of Food and Agriculture (NIFA). NFU opposes USDA's 
proposed relocation of ERS and NIFA, and its planned reorganization of 
ERS.
    National Farmers Union (NFU) represents approximately 200,000 
family farmers, ranchers and rural residents, and works to protect and 
enhance the economic well-being and quality of life for family farmers 
and ranchers and rural communities across the country. NFU first 
adopted a position against the proposal and sent a letter to Secretary 
of Agriculture Sonny Perdue in September 2018 articulating our 
concerns. NFU remains troubled by the proposed relocation and 
reorganization because the process has lacked meaningful public input, 
the proposed changes may diminish the objectivity of each agency, and 
the proposal devalues public agriculture research.
NFU's Policy and Background Information
    NFU is a strong supporter of public agriculture research that is 
unbiased, data-driven, and free from political influence. Our member-
driven policy ``supports increased funding for public agricultural 
research'' and notes that reductions in state and Federal funding for 
agriculture research and the ``increase in private research has reduced 
the sharing of information and increases costs of production inputs.'' 
\1\
---------------------------------------------------------------------------
    \1\ National Farmers Union. Policy of the National Farmers Union. 
March 2019.
---------------------------------------------------------------------------
    ERS and NIFA are integral to our public agricultural research 
system and play major roles in helping farmers and ranchers improve 
productivity, natural resource stewardship, and access global markets. 
In the face of great economic and environmental challenges, the work of 
these agencies in helping family farmers and ranchers succeed is 
critical. Moreover, the USDA Research, Education, and Economics (REE) 
mission area invests approximately $3 billion \2\ annually in publicly 
funded food and agriculture research, including through ERS and NIFA, 
which benefits millions of people across the country. Thus, any changes 
made to these agencies has far-reaching consequences.
---------------------------------------------------------------------------
    \2\ Jim Monke. Congressional Research Service (CRS). ``Agricultural 
Research: Background and Issues.'' October 6, 2016.
---------------------------------------------------------------------------
A Process Without Strong Public Input Or Justification
    The process to relocate these agencies has lacked meaningful public 
input that would better inform decision-making. The proposal was 
developed without stakeholder input or a cost-benefit analysis. 
Additionally, to-date, USDA has not been forthcoming and transparent 
with all of the metrics it has used to develop and carry out its 
proposal.
    The proposal does not adequately address how USDA will improve the 
agencies' effectiveness in serving family farmers and ranchers through 
the relocation process. In USDA's initial announcement of its intention 
to relocate the agencies, it cited difficulty recruiting employees to 
the Washington, D.C. area due to high cost of living and long 
commutes.\3\ However, no strong evidence has been provided for these 
recruitment challenges, and to date the relocation process has resulted 
in significant loss of knowledgeable and experienced staff. Ultimately, 
this loss of staff may lead to disruptions in NIFA's grant and program 
delivery and ERS's research, analysis, and reporting. Disruptions to 
the functioning of these agencies could have significant detrimental 
impact on family farmers and ranchers.
---------------------------------------------------------------------------
    \3\ USDA. ``USDA to Realign ERS with Chief Economist, Relocate ERS 
& NIFA Outside DC.'' August 9, 2018. https://www.usda.gov/media/press-
releases/2018/08/09/usda-realign-ers-chief-economist-relocate-ers-nifa-
outside-dc.
---------------------------------------------------------------------------
A Threat to Independent, Science-Based Research
    We are also deeply concerned that the relocation and reorganization 
will jeopardize each agency's objectivity. In addition to the 
relocation plans, USDA intends to move ERS from the REE mission area 
and place it under the Office of the Chief Economist (OCE). The Chief 
Economist's role is to advise the Secretary on the economic impact of 
USDA's policies and programs, while the office of the Under Secretary 
for REE and the Chief Scientist are explicitly charged with upholding 
scientific integrity.\4\ Given that ERS's mission is to conduct 
``objective economic research'' for the benefit of the public, placing 
ERS directly under the Chief Economist's purview may diminish the 
scientific integrity and objectivity of the agency's research and 
analysis. Relocating NIFA at or near entities applying for grants may 
also create conflicts of interest in the grant awarding process.
---------------------------------------------------------------------------
    \4\ Code of Federal Regulations, Title 7--Agriculture, Sec. 2.69. 
https://www.govinfo.gov/content/pkg/CFR-2018-title7-vol1/xml/CFR-2018-
title7-vol1-part2.xml#seqnum2.21.
---------------------------------------------------------------------------
Devaluing Public Agriculture Research
    Physically locating ERS and NIFA away from the Washington, D.C. 
area could significantly reduce the access important decision makers 
have to these agencies, thus diminishing the importance and influence 
of these agencies and their work. The President's own FY 2020 Budget 
Proposal clearly states that ERS's ``key clientele includes White House 
and USDA policy officials; program administrators/managers; the U.S. 
Congress; other Federal agencies; state and local government officials; 
and organizations, including farm and industry groups interested in 
public policy issues.'' Since the majority of these stakeholders are 
located in Washington, D.C., the proposed relocation would serve to 
diminish agency effectiveness and cross-collaboration.
    Also troubling is that the President's FY 2020 budget request, 
which includes the directive to relocate ERS and NIFA and reorganize 
ERS, also includes a discontinuation of research at ERS that is vital 
to farmers, ranchers and rural communities. In particular, the budget 
request states that ``ERS will discontinue research relative to farm, 
conservation and trade policy, and on investments in agricultural 
research and development.'' \5\ Also proposed is the elimination of 
research and extramural agreements such as drought resilience, new 
energy sources, local and regional food markets, beginning farmers and 
ranchers, invasive species, markets for environmental services, and on 
food safety. Food and nutrition issues and all research and statistics 
related to the rural economy are also proposed for removal from ERS's 
purview.
---------------------------------------------------------------------------
    \5\ USDA. ``2020 Budget: Explanatory Notes for Committee on 
Appropriations, Volume 1.'' Page 16-6. https://www.obpa.usda.gov/
USDA2020CJ.pdf.
---------------------------------------------------------------------------
Conclusion
    We thank the Committee again for the opportunity to submit 
testimony. We believe the proposal and process to-date is broadly 
detrimental to family farmers, ranchers, and rural communities, and we 
oppose the relocation of ERS and NIFA and the reorganization of ERS. 
NFU stands ready to provide any additional support or information the 
Committee may need in evaluating and considering USDA's proposal and 
process to-date.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Roger Johnson,
President.
                                 ______
                                 
 Submitted Letters by Hon. Neal P. Dunn, a Representative in Congress 
                              from Florida
                                letter 1
March 27, 2019

 
 
 
Hon. Sanford D. Bishop, Jr.,         Hon. Jeff Fortenberry,
Chairman,                            Ranking Minority Member,
House Appropriations Committee,      House Appropriations Committee,
Subcommittee on Agriculture,         Subcommittee on Agriculture,
Washington, D.C.,                    Washington, D.C.
 

    Dear Chairman Bishop and Ranking Member Fortenberry:

    We write in strong support of Secretary of Agriculture Sonny 
Perdue's goal to improve customer service, strengthen offices and 
programs, and save taxpayer dollars by relocating the Economic Research 
Service (ERS) and the National Institute of Food and Agriculture (NIFA) 
outside of the National Capital Region.
    Key functions of the USDA such as the Agricultural Research Service 
(ARS) and the National Agricultural Statistics Service (NASS) are 
already located outside of the Washington, D.C. area and have a strong 
track record of providing quality service to America's farmers, 
ranchers, rural communities, and research and extension stakeholders. 
We believe relocating ERS and NIFA would build upon USDA's capacity and 
improve the agency's ability to recruit top talent from universities 
across the nation while being closer to rural America and reducing 
taxpayer expenditures.
    We commend the Secretary for his commitment that no ERS or NIFA 
employee will be involuntarily separated during this transition, and 
that employees will be offered relocation assistance and will receive 
the same base pay as before. We also appreciate USDA's notice and 
attention to its important research, extension, and education mission. 
It is clear that the Secretary remains committed to mission-delivery 
both during this transition and once the relocation effort is complete.
    For the above mentioned reasons, we request that no relocation 
limitation be included in the FY 2020 Agriculture, Rural Development, 
Food and Drug Administration, and Related Agencies Appropriations Bill.
    While we understand Congressional oversight is appropriate, we are 
ready to work with you to ensure any logistical complications or issues 
that may arise are overcome. We appreciate your time and attention to 
this matter and strongly support this effort.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Hon. Vicky Hartzler, (MO-04);        Hon. K. Michael Conaway, (TX-11),
                                     Ranking Minority Member, Committee
                                      on Agriculture;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
Hon. Neal P. Dunn, (FL-02);          Hon. Roger W. Marshall, (KS-01),
Ranking Minority Member,
 Subcommittee on Biotechnology,
 Horticulture, and Research;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 

 
 
 
Hon. Ann Wagner, (MO-02);            Hon. Trent Kelly, (MS-01);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Glenn Thompson, (PA-15);        Hon. Don Bacon, (NE-02);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Mike Bost, (IL-12);             Hon. Joe Wilson, (SC-02);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Kevin Brady, (TX-08);           Hon. Ralph Lee Abraham, (LA-05);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Eric A. ``Rick'' Crawford, (AR- Hon. Doug LaMalfa, (CA-01);
 01);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. James Comer, (KY-01);           Hon. Sam Graves, (MO-06);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Bill Flores,  (TX-17);          Hon. David Rouzer, (NC-07);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Dusty Johnson, (SD-AL);         Hon. Jackie Walorski, (IN-02);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Austin Scott, (GA-08);          Hon. Ted S. Yoho, (FL-03);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Hon. Jim Hagedorn,  (MN-01);         Hon. Jim Banks, (IN-03);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Scott DesJarlais, (TN-04);      Hon. James R. Baird, (IN-04);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Trey Hollingsworth, (IN-09);    Hon. Blaine Luetkemeyer, (MO-03);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Greg Pence, (IN-06);            Hon. Denver Riggleman, (VA-05);
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Rodney Davis, (IL-13);          Hon. Rick W. Allen, (GA-12).
 

                                letter 2
April 3, 2019

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture,
  Washington, D.C.

    Dear Secretary Perdue,

    We were pleased to see the State of Indiana included in your latest 
shortlist to host the U.S. Department of Agriculture (USDA) Economic 
Research Service (ERS) and National Institute of Food and Agriculture 
(NIFA). We strongly endorse the Indiana State Department of 
Agriculture, AgriNovus Indiana, and Purdue University's proposal and 
urge you to give it careful consideration.
    As one of the top agriculture producing states in the country, 
farming runs deep in Hoosier veins. The industry contributes an 
estimated $31.2 billion to Indiana's economy each year with 56,800 
farming operations with an average farm size of 259 acres. Ninety-seven 
percent of farms are family-owned or operated. Relocating ERS and NIFA 
to Indiana would give USDA a greater presence in the agriculture 
heartland of our country, ensuring that resources are never far from 
the farmers, growers, farm supply, and university researchers who can 
provide real-time feedback and assist in the policymaking process.
    Indiana is also home to Purdue University and the nationally and 
internationally ranked College of Agriculture. Purdue boasts three 
World Food Prize laureates on the faculty, is the #1 Agriculture and 
Biological Engineering program in the country, and is the home to the 
only plant phenotyping facility at a U.S. university.
    Holding the title the ``Crossroads of America'' is something we 
take seriously. Thanks to our proactive and innovative state leaders, 
Indiana has made unparalleled investments in infrastructure, elevating 
Indiana's economic competitiveness and quality of life. The 
Indianapolis International Airport, with direct flights to Washington, 
D.C., has been the top airport in North America for 7 straight years.
    USDA employees will be pleased with the affordable living costs and 
one percent capped residential property taxes. According to C2ER's Cost 
of Living Index, a person earning $100,000 in Washington, D.C. would 
only need to earn $60,253 in Indiana to enjoy the same level of living. 
Additionally, Indiana commuters spend 46 fewer hours per year in 
traffic congestion than in Washington[,] D.C., per INRIX Global Traffic 
Scorecard. Indiana has spent years adopting sound fiscal policies, and 
today Indiana is one of only a handful of U.S. states with a AAA credit 
rating and an annual budget surplus.
    We hope you will visit Indiana once again as part of the 
deliberative process and see for yourself why moving NIFA and ERS to 
Indiana is the right choice. We stand ready to assist you as you 
consider your options to ensure the USDA is the most effective, most 
efficient, and most customer-focused agency in the Federal Government.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Hon. Todd Young,                     Hon. Mike Braun,
United States Senator;               United States Senator;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. James R. Baird,                 Hon. Peter J. Visclosky,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Jackie Walorski,                Hon. Susan W. Brooks,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Andre Carson,                   Hon. Larry Bucshon,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Trey Hollingsworth,             Hon. Jim Banks,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Greg Pence,
Member of Congress.
 

                                letter 3
May 20, 2019

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture
  Washington, D.C. 20252

    Dear Secretary Perdue,

    Thank you for including the Greater Kansas City Region on the short 
list of possible locations for the U.S. Department of Agriculture 
(USDA) Economic Research Service (ERS) and National Institute of Food 
and Agriculture (NIFA). We write to express our strong support for the 
selection of Kansas City to be the future home of these agencies.
    We share your commitment to uphold the critical missions of ERS and 
NIFA during the relocation process and in the future. Agricultural 
research is one of the most critical functions of USDA. We must ensure 
the relocation supports and strengthens the research functions that are 
essential to the agriculture industry. As you continue to evaluate the 
finalists, we are confident you will find Kansas City to excel in each 
of the criteria considered by USDA: capital and operating costs, 
workforce, logistics and quality of life for employees.
    We appreciate your focus on reducing the cost of government and 
making USDA more responsible stewards of taxpayer dollars. You will 
find capital and operating expenses in Kansas City to be lower than 
Washington, D.C. and competitive nationally.
    Kansas City is home to a highly-skilled workforce, including to 
approximately 5,000 USDA employees and contractors. The Kansas City 
Animal Health Corridor, stretching from Manhattan, Kansas to Columbia, 
Missouri, is the largest concentration of animal health companies in 
the world. Kansas is the future home of the National Bio and Agro-
Defense Facility (NBAF), the nation's foremost animal disease research 
facility. Over a dozen land-grant universities and research 
institutions are located in close proximity of Kansas City. This 
concentration of animal health companies, NBAF and land-grant 
universities will not only complement the research capabilities of ERS 
and NIFA, but continue to foster a talented workforce to meet the 
personnel needs of USDA in the future.
    Being centrally located, Kansas City offers convenient air and 
ground travel across the continental United States. The area is 
primarily served by the Kansas City International Airport, which is 
currently undergoing a $1.5 billion renovation to meet the needs of the 
growing local economy, with several regional airports also located 
nearby. Kansas City is ideally located for ERS and NIFA employees to 
simultaneously be closer to the agricultural stakeholders and rural 
communities they serve, while also being able to conveniently travel to 
USDA headquarters, research institutions and elsewhere across the 
nation.
    We agree the quality of life of USDA employees ought to be a key 
consideration in relocating the agencies, and assure you that Kansas 
City is a premier place for people to live and work. Kansas City has 
undergone significant development in recent years, including a 
revitalized downtown area that offers residents a vibrant and exciting 
lifestyle. Kansas City residents enjoy some of the shortest commute 
times of any metropolitan area and have convenient access to popular 
destinations in both urban and rural areas of our states. The cost of 
living and residential housing costs in Kansas City are significantly 
lower than Washington[,] D.C. and most other cities.
    ERS and NIFA each play an important role in our nation's food and 
agricultural research, education and extension services. Relocating ERS 
and NIFA to the middle of the country provides an opportunity to 
enhance the agencies' respective roles within USDA and their ability to 
serve farmers, ranchers and rural communities. We appreciate your 
consideration of Kansas City to be the future home of ERS and NIFA and 
stand willing to be of assistance to you in relocating the agencies to 
the area.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Hon. Jerry Moran,                    Hon. Roy Blunt,
United States Senator;               United States Senator;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Pat Roberts,                    Hon. Josh Hawley,
United States Senator;               United States Senator;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Sharice Davids,                 Hon. Emanuel Cleaver,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Vicky Hartzler,                 Hon. Roger W. Marshall,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Steve Watkins,                  Hon. Sam Graves,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Ron Estes,
Member of Congress.
 

                                letter 4
May 22, 2019

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture
  Washington, D.C. 20252

    Dear Secretary Perdue:

    We understand there are plans underway to possibly relocate the 
Economic Research Service (ERS) and the National Institute of Food and 
Agriculture (NIFA) agencies of the U.S. Department of Agriculture 
(USDA) to outside of Washington, D.C. Should USDA move forward with its 
plans, we ask that you give our great State of North Carolina your full 
consideration.
    Agriculture is a cornerstone of North Carolina's economy, 
comprising our state's industry with an economic impact of $87 billion 
and supporting 686,200 jobs across the state. North Carolina's diverse 
topography coupled with its year-round temperate climate and rich soils 
have allowed North Carolina to become one of the most agriculturally 
diverse states in the nation, cultivating almost ninety different 
crops.
    North Carolina's vibrant agriculture industry is also attributable 
to partnerships with our state's world-renown universities. North 
Carolina is home to two land-grant universities, North Carolina State 
University and North Carolina A&T University. In addition, Duke 
University and the University of North [] Carolina at Chapel Hill, two 
U.S. News and World Report top ranked universities, are centrally 
located within a twenty mile radius of North Carolina State University, 
and Raleigh-Durham International airport.
    The Raleigh-Durham area has experienced tremendous growth over the 
last decade largely due to ample job opportunities, low-cost of living, 
and the overall high quality of life offered from the area's expanding 
recreational and cultural opportunities.
    As Representatives of North Carolina, we stand ready to assist you 
with providing any further information about our state's countless 
attributes, and we look forward to further discussions about North 
Carolina's resources, talent, and access that make it an exceptional 
candidate for ERS and NIFA's new home.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Hon. Thom Tillis,                    Hon. Richard Burr,
United States Senator;               United States Senator.
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. David E. Price,                 Hon. David Rouzer,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. George Holding,                 Hon. G. K. Butterfield,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Patrick T. McHenry,             Hon. Richard Hudson,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Mark Walker,                    Hon. Mark Meadows,
Member of Congress;                  Member of Congress;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Hon. Ted Budd,                       Hon. Virginia Foxx,
Member of Congress;                  Member of Congress.
 

                                 ______
                                 
 Submitted Letter by Hon. Vicky Hartzler, a Representative in Congress 
                             from Missouri
May 14, 2019

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture
  Washington, D.C.

    Dear Secretary Perdue:

    We are delighted that Kansas City (KC) is a finalist site for the 
future home to two U.S. Department of Agriculture (USDA) agencies: 
Economic Research Service (ERS) and National Institute of Food and 
Agriculture (NIFA). As members of the leadership team from the adjacent 
land-grant, research institutions, we enthusiastically endorse the 
proposal submitted by the Kansas City Area Development Council (KCADC) 
and the Kansas City Animal Health Corridor for relocation to Kansas 
City.
    The Kansas City region is widely recognized as a center for Midwest 
agriculture. Within 300 miles of Kansas City, there are six of the 
nation's premiere 1862 land-grant institutions--two of which are 
members of the prestigious Association of American Universities. 
Additionally, there are three 1890 land-grant institutions, and three 
1994 institutions. All of these universities and colleges offer future 
talent in agricultural sciences, in addition to the many regional 
colleges of agriculture throughout the [M]idwest. Since 2017, these 
institutions graduated more than 150 Ph.D.s in agriculture. No other 
location in the United States offers a similar cluster of land-grant 
access and diversity.
    Across the [M]idwest, agriculture is the unrivaled economic driver, 
contributing more than $300 billion annually to the region. 
Furthermore, each institution has acclaimed research, teaching and 
Extension programs actively contributing to agricultural innovation and 
technology translation across the region, the nation and the world. The 
USDA will find more than 400,000 farming operations here in the 
[M]idwest with an average farm size of nearly 600 acres.
    We are confident that an enhanced USDA presence in Kansas City will 
convey a strong commitment to U.S. agriculture, supported by ready 
access to world-class researchers and land-grant and other agricultural 
institutions that will lend leadership to critical agricultural issues 
facing policy makers.
    Iowa State University (ISU) is 225 miles from KC. ISU conducts 
cutting-edge research in agriculture and natural resources. Iowa ranks 
first nationally in corn, hog, egg and ethanol production, and second 
nationally in soybean and red meat production and in agricultural cash 
receipts and exports. Iowa was first state to adopt the Morrill Act, 
and originated Cooperative Extension. ISU and the surrounding community 
host: (1) USDA APHIS Veterinary Services Laboratory; (2) USDA ARS 
National Animal Disease Center; National Laboratory for Agriculture and 
Environment and Regional Plant Introduction Station; Corn Insects and 
Crop Genetics Research Unit; and Crop Genome Informatics Laboratory; 
(3) USDOE Ames National Laboratory; and (4) other state/regional/
national centers with missions aligned with the USDA.
    The University of Nebraska-Lincoln (UNL), is 195 miles from KC. 
This exceptional Big Ten land-grant institution was the first 
university west of the Mississippi River to offer graduate education. 
Nebraska is the third largest agricultural economy in the U.S., ranks 
first in beef exports, commercial red meat production and the number of 
irrigated acres, and is known for the scale and diversity of its crop 
and livestock commodities. UNL is home to globally leading plant and 
animal science research programs, a U.S. Census Regional Data Center, 
the Daugherty Water for Food Global Institute, the National Drought 
Mitigation Center, Nebraska Innovation Campus--including a Food 
Innovation Center and Greenhouse Innovation Center--and the innovative 
Engler Agribusiness Entrepreneurship Program.
    Kansas State University (K-State), anchored in Manhattan, KS and 
123 miles from Kansas City, is the nation's first operational land-
grant university. K-State offers 323 undergraduate and master degree 
programs, 43 graduate certificates, 39 doctoral degree programs, and 
has exceptional research facilities, including the Biosecurity Research 
Institute. The new National Bio- and Agro-Defense Facility sits 
adjacent to the campus' College of Veterinary Medicine and College of 
Agriculture, both ranked among the top schools in the nation. With 
these resources and a campus in suburban KC, K-State is well poised to 
support USDA NIFA and ERS agencies in meeting U.S. and global food 
system challenges.
    The University of Missouri's College of Agriculture, Food & Natural 
Resources (MU-CAFNR) is situated 125 miles from Kansas City, with 17 
research farms and centers positioned across the Show-Me state. MU-
CAFNR offers degree programs to nearly 3,000 students preparing for 
careers in the agriculture and natural resource industries. This land-
grant college is home to world-class animal and plant scientists who 
develop systems to produce the food, fiber, feed and fuel for a healthy 
world. Identified as an MU-CAFNR Program of Distinction, the Food and 
Agricultural Policy Research Institute contributes critical information 
to USDA and Capitol Hill on policy issues.
    The land-grant mission is alive and well in the [M]idwest, the 
heart of U.S. agriculture. The faculty, staff and students across our 
campuses are ready to help our USDA colleagues adapt to the Kansas City 
region as we work together to strengthen U.S. agriculture around the 
world.
            Sincerely,
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Wendy Wintersteen, Ph.D.,            Richard B. Myers,
President, Iowa State University;    President, Kansas State University;
 

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

 
 
 
Ronnie D. Green, Ph.D.,              Alexander Cartwright, Ph.D.,
Chancellor, University of Nebraska-  Chancellor, University of Missouri.
 Lincoln;
 

                                 ______
                                 
 Submitted Letters by Hon. David Rouzer, a Representative in Congress 
                          from North Carolina
                                letter 1
October 2, 2018

  Hon. Sonny Perdue,
  Secretary,
  U.S. Department of Agriculture
  Washington, D.C. 20252

    Dear Secretary Perdue:

    We write to express our support for the comments submitted by 
several of our constituents advocating for the Economic Research 
Service (ERS) and the National Institute of Food and Agriculture (NIFA) 
agencies of the U.S. Department of Agriculture (USDA) to be relocated 
to our great state of North Carolina.
    Agriculture has been a cornerstone of North Carolina's economy for 
over 200 years. Our agriculture and agribusiness industry continues to 
be the number one industry in North Carolina, bringing in more than $87 
billion each year and supporting 686,000 jobs across the state. The 
diverse topography, year-round temperate climate, and wide range of 
rich soils provide outstanding conditions for the cultivation of nearly 
90 commodities, making North Carolina one of the most agriculturally 
diverse states in the nation.
    North Carolina's thriving agriculture industry is made even more 
vibrant as a result of outstanding partnerships with our world-renown 
universities. We are home to the nation's largest 1890 land-grant 
university, North Carolina A&T University, as well as the 1862 land-
grant university, North Carolina State University. Additionally, North 
Carolina has sixteen other campuses across the state that comprise the 
University of North Carolina System--the majority of which are located 
within a short drive of North Carolina's major airport hubs.
    Ample job opportunities, low-cost of living, and the overall high 
quality of life offered by expanding recreational and cultural 
opportunities have resulted in exponential, continuing migration to 
North Carolina from across the globe. It is no shock that the 
agribusiness and technology industries in the area have experienced 
similar growth over the last decade.
    We thank you for your commitment to bring USDA's resources closer 
to stakeholders and look forward to further discussions about North 
Carolina's resources, talent, and access that make it a great fit for 
ERS and NIFA's new home, and we respectfully ask you to consider our 
state in your search.
            Respectfully,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
Hon. Richard Burr,                   Hon. Thom Tillis,
United States Senator;               United States Senator.
 

                                letter 2
    See Dunn Submitted Letter No. 4 on p. 38.
                                letter 3
October 3, 2018

  Donald K. Bice,
  Deputy Assistant Secretary for Administration,
  U.S. Department of Agriculture,
  Washington, D.C.

    Dear Mr. Bice:

    As you consider opportunities to relocate USDA's National Institute 
of Food and Agriculture (NIFA) and Economic Research Service (ERS) 
headquarters locations outside of Washington, D.C., I strongly 
encourage you to seriously consider North Carolina. Our state is proud 
to present three different proposals for your consideration. These 
options would provide you a workforce that can compete with any in the 
country and give your professionals the opportunity to work in vibrant 
communities with exceptional access to education and research 
institutions, an improved cost of living and quality of life. Here in 
the Old North State, we honor our strong agricultural traditions and 
value our farms and farmers who work every day to feed our country and 
the world.
    In North Carolina you'll find a public university system second to 
none. Responsible for over $2 billion Federal research dollars, North 
Carolina State University, North Carolina A&T State University, and the 
rest of the University of North Carolina system are leading the way in 
innovative agricultural practices for our country. Our public 
university system is enhanced by our strong network of private colleges 
and universities and our 58 member Community College system.
    Each of the locations we propose are a short drive from both the 
mountains and the coast and boast outstanding recreational 
opportunities for your employees. Affordable cost of living across our 
state will only prove to enhance the quality of life for your 
employees, and they will maintain access to Washington and the country 
with our network of international airports.
    We're ready to get to work. North Carolina workers are talented, 
educated, and ready to work for USDA and its stakeholders across the 
country. That's thanks in part to our cultural values and exceptional 
educational system, but also to rich training opportunities and our 
steadfast commitment to research and development.
    As you consider options for your relocation, I invite you to join 
us in North Carolina. Our agricultural economy is among the most 
diverse in the nation--an $87 billion economic driver. More than 47,000 
farms are growing 90 different commodities in 400 different soil types 
on over 8 million acres. USDA, the NIFA and ERS would be most welcome 
partners as we continue to grow the agricultural community in North 
Carolina.
    With kind regards, I am
            Very truly yours,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Roy Cooper.
                                letter 4
October 4, 2018

  Donald K. Bice,
  Deputy Assistant Secretary for Administration,
  U.S. Department of Agriculture,
  Washington, D.C.

    Subject: USDA NIFA/ERS relocation proposals

    Dear Deputy Assistant Secretary Bice,

    Please accept this letter of support for North Carolina as the new 
location for USDA's National Institute of Food and Agriculture and 
Economic Research Service. The North Carolina Department of Agriculture 
and Consumer Services has a long history of partnering with USDA to 
provide resources and support for North Carolina farmers as well as the 
protection and education of our citizens.
    We at the NCDA&CS are working directly with the Economic 
Development Partnership of North Carolina on the submission of the 
Expressions of Interest from NC, because we see great value in having 
NIFA and ERS headquartered in our state.
    North Carolina is regularly seen as a great place to live, work and 
play. Our universities, as well as the community college system, 
provide top-tier education and will provide USDA with a pool of 
qualified candidates for both NIFA and ERS. With all our state has to 
offer, USDA will be able to recruit highly-skilled candidates for 
available positions and reduce turnover. With agriculture being our 
number one industry, many in North Carolina also understand the 
agricultural and rural community and the varied customers these 
agencies serve.
    The Cooperative Extension Program is one of the largest in the 
country and is anchored by two excellent universities, N.C. A&T State 
University and North Carolina State University. The programs are 
specifically tailored to the agriculture and agribusiness in their 
respective areas. This is extremely important in a state that is the 
fourth most diversified agriculture state in the country based on 
commodities grown or raised commercially.
    In addition to the variety of commodities produced, we have a large 
number of food manufacturers and processors operating in our state. The 
N.C. Food Innovation Lab, a soon-to-be hub for plant-based food science 
and manufacturing advancement will be located at the N.C. Research 
Campus, located in Kannapolis. The innovation center will support the 
expansion of food manufacturing and processing in North Carolina, 
increasing the opportunity for state farmers. Another agency that 
supports farmers is the Agriculture Sector Development in the NC 
Biotechnology Center. We are also headquarters to several grocery store 
chains and operate four regional farmers markets through the NCDA&CS.
    We support the relocation of NIFA and ERS and see value to both the 
state and USDA to having these agencies in North Carolina.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Steven W. Troxler,
Commissioner.
                                letter 5
June 4, 2019

  Hon. David Rouzer,
  Congressman,
  Washington, D.C.

    Dear Congressman Rouzer:

    North Carolina Farm Bureau strongly supports USDA Secretary Sonny 
Perdue's efforts to relocate the Offices of Economic Research Services 
and National Institute of Food and Agriculture. I along with 
Commissioner of Agriculture Steve Troxler and Dean of NCSU's College of 
Agriculture Rich Linton met with USDA's search committee last month 
showing our unified support. The Research Triangle Area has a lot of 
the qualities that USDA requires:

  <bullet> North Carolina enjoys two of the top land-grant research 
        universities in the nation: NC State University and 
        historically black North Carolina A&T State University in close 
        proximity.

  <bullet> We already have ``outpost'' laboratories of EPA in the 
        Research Triangle Park.

  <bullet> Our university and agriculture communities are highly 
        supportive of the relocation.

  <bullet> The RTP is an easy 4.5 hour drive from D.C. and a short 
        direct flight.

  <bullet> The RTP has a low cost of living, relative low cost housing, 
        easy commutes and desirable quality of life.

  <bullet> We enjoy excellent schools, three world class research 
        universities and a robust diverse agriculture as well as a 
        thriving ag-biotech sector.

  <bullet> North Carolina has a rich agricultural heritage and is the 
        third most diversified agriculture in the country.

  <bullet> Because of NC's expanding economy, trailing spouses have an 
        easier time finding appropriate career opportunities.

  <bullet> Our state is an excellent place to live, work and play. In 
        just a few hours of travel time, we can enjoy pristine beaches, 
        majestic mountains, professional sports teams and world famous 
        ACC Basketball.

  <bullet> In the corporate relocation world, NC is known as a 
        ``sticky'' state. Once employees move here, they do not want to 
        leave.

  <bullet> North Carolina will be an outstanding choice for relocating 
        these important agencies.

    Thank you for your help in promoting this effort. We stand ready to 
answer any questions that may come up.
            Sincerely,
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Larry B. Wooten,
President.
                                letter 6
September 12, 2018

  RE: North Carolina Proposal, USDA NIFA and ERS Relocation

    Dear Ms. Lee,

    As a President and Chief Executive for the North Carolina 
Biotechnology Center, I appreciate the opportunity to comment on the 
proposal to locate employees of the USDA within our state.
    I am writing to communicate my organization's strong support and 
commitment to ensure success of the relocation of USDA offices for the 
National Institute of Food and Agriculture (NIFA) and the Economic 
Research Service (ERS). From our founding in 1984, the NC Biotechnology 
Center has had a strong focus on connecting academic, government, and 
industry efforts on agriculture-related sciences and technologies for 
the benefit of North Carolina and with impact worldwide. We believe 
that locating these key departments of the USDA within our ag-tech 
ecosystem that is a unique opportunity for the USDA and reinforced by 
proximity to the diverse agricultural production system within the 
state. We are confident that North Carolina offers unmatched capability 
for achievement of the desired goals of the NIFA and ERS relocation.
    There is no doubt that locating such key initiatives as NIFA and 
ERS within our state will provide many benefits to the USDA. As you 
know, our Agriculture Sector Development team has a strong record of 
success in supporting and growing one of the world's largest ag-tech 
hubs. Of particular interest for this project is our capabilities to 
connect talent with opportunity. In today's economy, we recognize that 
relocation of employees often includes decisions based on opportunity 
for spouses and partners as well. We know that this household 
professional connection is especially prevalent in agriculture and know 
that in addition to ensuring success of the department/employee 
relocation, North Carolina is particularly suited to opportunities for 
ag professional spouses and partners.
    I look forward to supporting your effort along with the multiple 
organizations that will collaborate with you. We know that North 
Carolina can become the national resource for agricultural economic 
data, as well as the Federal center of support for agricultural science 
and technology.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Douglas L. Edgeton,
President and Chief Executive Officer,
15 TW Alexander Drive D Post Office Box 13547 D Research Triangle Park, 
NC 27709
919-549-8819 D <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3340505c47476c595c5b5d405c5d735d50515a5c4756505b1d5c4154">[email&#160;protected]</a>
                                letter 7
October 4, 2018

    Dear USDA Committee:

    As Chancellor of NC State University, I would like to offer my 
support for North Carolina as the site for the new headquarters for the 
United States Department of Agriculture's National Institute of Food 
and Agriculture (NIFA) and the Economic Research Service (ERS). North 
Carolina is uniquely qualified to host these organizations due to our 
strong agricultural foundation, innovative approach to research and 
education, and powerful industry partnerships.
    North Carolina has incredible agricultural diversity, and NC State 
has a long history of promoting agriculture's progress. North Carolina 
farmers produce more than 90 commodities, making us one of the most 
diverse agriculture production states in the United States. Our state 
is the nation's top producer of sweet potatoes and tobacco and the 
second-leading producer of hogs, pigs and turkeys. NC State has 18 
research stations across the state and Cooperative Extension offices in 
every county in an attempt to provide a depth of knowledge and 
resources to our agriculture community. This also allows us to conduct 
research that is representative of North Carolina's wide diversity in 
climate and soil composition, the results of which can serve as a model 
for many global regions and United States territories.
    NC State's approach to innovative research and education truly sets 
us apart. With our Colleges of Agriculture and Life Sciences, 
Veterinary Medicine, and Natural Resources all among the top in the 
nation, no other university has a better collection of colleges focused 
on animal and plant production, forest health and forest bio-materials 
production, and ground-breaking animal health research. In addition to 
the knowledge gained through rigorous coursework, we strive to 
emphasize the importance of knowledge generation and application 
through hands-on research and industry collaborations.
    We have an incredible number of strong partnerships with industry 
and organizations that demonstrate our capability and record 
accomplishment in these fields. In fact, many of these partnerships 
exist directly with the USDA and affiliated organizations including the 
NIFA and ERS. NC State is working to create one of the world's best 
agriculture research centers through the Plant Sciences Initiative 
(PSI). The PSI will bring together experts from the university, 
industry and government and encourage collaborative research into our 
most challenging global problem: food security for the growing global 
population. In addition to the wealth of opportunities on NC State's 
campus and affiliated locations, Research Triangle Park cultivates a 
strong biotechnology presence nearby and provides the potential for 
even further research partnerships.
    Thank you for considering North Carolina as a potential home for 
the NIFA and ERS headquarters.
            Sincerely,

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
W. Randolph Woodson,
Chancellor.
                               Attachment
    North Carolina State University's College of Agriculture and Life 
Sciences, College of Natural Resources and College of Veterinary 
Medicine are all ranked in the top three in the nation. As a high-
performing Think and Do land-grant institution, we strive each and 
every day to engage substantively with our education and economic 
development organizational partners on a local, regional and statewide 
basis to promote capital investment, job creation and community growth 
and development. Here below are just a few salient examples

  <bullet> NIFA Grants: NC State University enjoyed 401 research 
        collaborations and more than $43.5 million in total funding 
        from USDA during Federal Fiscal Year 2017 across multiple 
        colleges including Agriculture and Life Sciences, Veterinary 
        Medicine, Natural Resources, Engineering, Management and 
        Sciences.

  <bullet> During Federal Fiscal Year 2017, NIFA awarded NC State 
        faculty 77 new grants totaling $22.3 million. CALS accolades 
        and overall NC State University rankings illustrate a mass of 
        intellectual capacity to interact effectively with faculty, 
        staff, students and partners. NC State's Colleges of 
        Agriculture, Natural Resources and Veterinary Medicine are 
        together the single best complex of land-grant colleges in the 
        nation. No other university has a better collection of colleges 
        focused on animal and plant production, forest health and 
        forest bio-materials production and a preeminent college of 
        Veterinary Medicine.

  <bullet> NC State is also home to five ARS research units with robust 
        faculty collaborations between ARS and NC State researchers. 
        Coupled with enthusiastic support from our NC Governor and our 
        NC Legislature, NC State University is creating one of the 
        world's finest agriculture research initiatives of the future, 
        the NC State Plant Science Initiative (PSI). The PSI will 
        broaden, deepen and enhance cutting-edge university/industry/
        government collaborative research into our most challenging 
        21st Century challenge, food security. NC State's 18 field labs 
        and research stations across the state are able to support 
        cutting-edge research across a wide variety of soils and 
        climates. And North Carolina farmers produce more than 90 
        commodities (top U.S. producer of sweet potatoes and tobacco, 
        second-leading producer of hogs and pigs, and turkeys), making 
        our state one of the most diverse agriculture production states 
        in the nation.

  <bullet> NC State partners with dozens of ag biotech/precision ag 
        companies and firms throughout North Carolina, especially here 
        in Research Triangle Park (celebrates 60th anniversary in 2019) 
        and on our award-winning NC State Centennial Campus, as well as 
        with Research Triangle International, UNC-Chapel Hill, Duke 
        University, and our 16 UNC System members and many members of 
        our 58 NC Community College System[.]
                                letter 8
September 10, 2018

  Donald Bice,
  USDA Deputy Assistant Secretary for Administration,
  Washington, D.C.

    Dear Mr. Bice:

    As the leader of one of two land-grant universities in North 
Carolina, I am pleased to join with the Economic Development 
Partnership of North Carolina and lend my full support to secure the 
relocation of the USDA's National Institute of Food and Agriculture and 
the Economic [Research] Service operations to our state, and 
particularly to the Greensboro/Piedmont Triad region.
    North Carolina Agricultural and Technical State University has had 
a long and fulfilling relationship with the USDA in academic endeavors, 
scholarly research, and most recently in facilities and outreach 
development. As of this July, we have begun construction on a NIFA-
sponsored $6 million, 17,000\2\ pavilion located on the Aggie Farm 
that will include an auditorium, laboratories, a demonstration kitchen, 
a 50 person classroom and a 400 person conference room. Three 
additional projects with a combined total value of $12.3 million will 
also be completed in the next 4 years: an amphitheater, student and 
community gardens and a community and urban food complex with a 
business incubator. In addition, ERS has sponsored over $500,000 in 
research efforts at the university over the past 8 years.
    N.C. A&T truly values our long-standing relationships with both 
NIFA and ERS and we look forward to the opportunity of working even 
more closely with these organizations when they become an integral part 
of the agricultural fabric of North Carolina.
            Sincerely,
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Harold L. Martin, Sr.,
Chancellor.
                                 ______
                                 
                          Submitted Questions
Response from Jack M. Payne, Ph.D., Senior Vice President for 
        Agriculture and Natural Resources, University of Florida; 
        Administrative Head, Institute of Food and Agricultural 
        Sciences, UF
Question Submitted by Hon. Jefferson Van Drew, a Representative in 
        Congress from New Jersey
    Question. As was stated before that China is overtaking the U.S. in 
many of the biotech and research aspects, would it not seem that the 
money and resources needed to relocate could be better used in 
continued research?
    Answer. Absolutely! The Chinese are building the best universities 
in the world. They are pouring billions of dollars into their 
infrastructure and they are hiring our faculty to run the institutions 
and conduct research. As one of the ``administrative heads'' of 
agriculture in the land-grant system, I have spent much time over the 
years working with Congress to try to increase the agricultural 
research budget (AFRI in NIFA). There is a $42B research budget in NIH, 
$8B research budget in NSF and $400M in AFRI! It is an embarrassment 
given the increasing challenges we will have in feeding the world. We 
should not be spending time and effort to move two critical agencies 
out of D.C., as well as the time it will take to rehire the needed 
scientists and program leaders, but instead we should be focused on 
increasing the research budget for Agriculture. Keeping NIFA and ERS in 
Washington with its Federal partners and Federal agency stakeholders is 
essential to this effort. Food security for our country and the world 
depends on it, as does world peace!
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
    Question 1. As someone with a background in medicine and science I 
recognize the importance of a robust research community. I look forward 
to delving into the science of agriculture with my colleagues. To be 
clear, I don't want to see research compromised by moving NIFA and ERS 
out of D.C. It may be expensive to live in D.C., but it is more 
expensive to lose the combined brainpower and experience of scientists 
who will leave the USDA rather than relocate.
    As the letter I submitted into the record and cosigned by Dean 
Andre-Denis Wright of Washington State University states, research 
advances have occurred because of the close collaboration of numerous 
research funding agencies. One such example is the Plant Genome 
Initiative. NIFA partnered with NSF, NIH and the Department of Energy 
to sequence the genomes of economically important plants and led to 
improved bean, potato, tomato, wheat and barley while at the same time 
training thousands of undergraduate and graduate students who will be 
the next generation plant scientists and breeders.
    In my opinion, such integrative science is essential for meeting 
future challenges. My question to Dr. Payne and Dr. Tracy is what kind 
of impact do you expect the proposed relocation of NIFA and ERS will 
have on collaborative, multi-agency research from USDA?

    Question 2. Do you anticipate the USDA experiencing retention 
issues of current scientific experts if the NIFA and ERS are moved out 
of the D.C. region?
    Answer 1-2. The proposed relocation of NIFA and ERS will have a 
very negative impact on collaborative, multi-agency research from USDA. 
NIFA serves as the Federal partner in the land-grant system and, not 
only manages the capacity funds in Smith-Lever and Hatch, but also the 
research funds in AFRI. Agricultural research today is multi-
disciplinary because the problems we are trying to solve today are 
multi-disciplinary. When someone, like myself, goes to Washington, 
D.C., I visit with my major partner, NIFA, but also with Depts. of 
Defense, Interior, EPA, NIH, NSF, the USDA Forest Service, USAID, FDA, 
etc., as well as Members of my state's Congressional delegation. All of 
these meetings are important because of the interdisciplinary nature of 
agriculture today. Land-grant universities receive funding from all of 
these Federal agencies in pursuit of the interdisciplinary research we 
conduct to solve agricultural problems. The University of Florida, for 
example, is the PI on a $49M USAID grant to develop livestock capacity 
in six African countries and two in Southeast Asia. USAID is 
headquartered in D.C. and I meet with them regularly. It becomes very 
difficult for those of us as administrative heads of Colleges of 
Agriculture to first go to D.C. to meet with partners and then 
somewhere else, such as Kansas City, to meet with our most important 
partner, NIFA.
    NIFA also serves [as] a conveyor for these interdisciplinary 
projects. The NIFA Director and/or the Under Secretary for REE, will 
gather scientists from across the Federal agencies to meet with us at 
NIFA when we work on these projects.
    All the reasons that USDA has provided for the relocation have 
shown to be specious. USDA's main reasons are that it will save money 
and that the two agencies need to be closer to farmers and ranchers.
    Regarding the claim that it will save money, please see analysis in 
the web link below that demonstrates that is will be the U.S. taxpayer 
that will be paying for this. It is not going to save USDA money.
    https://www.prweb.com/releases/
full_cost_of_moving_usda_research_agencies_
will_cost_taxpayers_money_not_save_it/prweb16391282.htm [Attachment 1]
    Regarding the claim that the agencies need to be closer to farmers 
and ranchers is specious as well because NIFA and ERS have never worked 
with farmers and ranchers. There is a reason why almost every county in 
the United States has a county extension office and over 500 research 
labs associated with 107 land-grant universities exist throughout the 
country to serve the needs of agriculture. We, land-grant universities, 
work with the farmers and ranchers. NIFA and ERS work with us.
    Morale of NIFA and ERS scientists and staff is at an all time low 
and over 100 already have let the agencies. Many more are trying to 
leave for other employment. It will takes years to get the agencies 
back up to the scientific capability that they once had. Due to the 
lack of good reasons for the move, many in the agricultural scientific 
community see this as a budget cut and an attack on science.
    The attitude of the NIFA and ERS staff regarding the proposed move 
and their concerns about the Administration's attack on their science 
is described in the following two web links:
    https://politi.co/2Y7bKDR [Attachment 2]
    Scientists push back against apparent purge at USDA under Trump:
    http://www.msnbc.com/rachel-maddow/watch/scientists-push-back-
against-apparent-purge-at-usda-under-trump-62384197574 [Attachment 3]

    Question 3. Given the potential location of the proposed NIFA/ERS 
faculties, are you concerned that having this located near one 
institution, and not in a ``neutral'' area will inadvertently 
facilitate interest in supporting that institution's efforts?
    Answer. Yes.

    Question 4. Have you been given adequate assurances by USDA that 
research around the country can be conducted in a way to avoid 
favoritism and maintain the best level of research?
    Answer. No.
                              attachment 1

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Full Cost of Moving USDA Research Agencies Will Cost Taxpayers Money, 
        Not Save It
Allison Scheetz,
Agricultural & Applied Economics Association, 414-918-3190
AAEA releases new research in USDA move

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The relocation is triggering an unprecedented level of staff 
        resignations and retirements

Milwaukee (PRWEB) June 19, 2019

    The proposed move of two USDA research agencies will cost taxpayers 
money and reduce America's agricultural economic research and 
information infrastructure, according to the Agricultural and Applied 
Economics Association (AAEA). The AAEA is responding to Agriculture 
Secretary Sonny Perdue's June 13 announced plan to relocate the 
Economic Research Service (ERS) and National Institute of Food and 
Agriculture (NIFA) from Washington, D.C., to Kansas City. A team of 
AAEA member economists find that the move will result in a net cost to 
taxpayers rather than a net savings. Additionally, a rushed, unplanned 
move will undermine the quality of USDA agricultural economic 
information at a critical time for the nation's agricultural and rural 
economy.
    The USDA's cost-benefit analysis was reviewed by three AAEA member 
economists: Scott Swinton, President last year of the AAEA, and Susan 
Offutt and Kitty Smith, both former ERS Administrators. The AAEA review 
here (https://www.aaea.org/UserFiles/file/Report-
MovingUSDAResearchersWillCostTaxpayers-
AAEAReport2019june19final.docx.pdf) finds that the proposed move would 
cost United States taxpayers $83 to $182 million dollars, instead of 
saving them $300 million as the USDA analysis claims. AAEA's reversal 
arises from correcting two errors in the original USDA analysis: (1) 
the USDA had overstated the cost of keeping the agencies in the 
National Capital Region, and (2) the USDA had failed to take account of 
the value of research and data lost through resignations and 
retirements. When translated into 2019 dollars, the combined values of 
these two corrections result in a cost to taxpayers of $37 to $128 
million, as opposed to the predicted gain.
    ``The ERS and NIFA have assembled a world-class staff, who have a 
deep knowledge and understanding of agriculture and rural issues, to 
support the U.S. food and agriculture sector, as well as the data and 
information systems that support timely, objective research and 
analysis of major agricultural issues. However, the relocation is 
triggering an unprecedented level of staff resignations and 
retirements. We estimate that the cost to the nation of the loss of 
this expertise alone will amount to somewhere between $149 million and 
$215 million,'' said former AAEA President Scott Swinton.
    ``Few people realize how much the USDA Economic Research Service 
analysis has saved American taxpayers,'' stated current AAEA President 
David Zilberman. ``This important research agency has saved taxpayers 
30 percent annually simply by improving the economic design of our 
Conservation Research Program. If this relocation leads to a loss of 
expertise at ERS and NIFA that results in just a one percent reduction 
in the cost-effectiveness of farm bill expenditures over just 2 years, 
that would cost U.S. taxpayers $2.8 billion.''
    ``To be frank, America's agricultural economy today faces serious 
challenges,'' continued Zilberman. ``This is the worst possible time to 
dismantle the USDA's capability to analyze agricultural markets, crop 
insurance, and trade policy.''
                              attachment 2

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Watch Agriculture Secretary Sonny Perdue dance around climate change 
        questions

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Editor's note: the video is retained in Committee file, and 
        can be accessed at: https://www.politico.com/story/2019/06/23/
        agriculture-department-climate-change-1376413.
          President Donald Trump and Agriculture Secretary Sonny Perdue 
        have both expressed skepticism about climate change and appear 
        to have suppressed research efforts on the topic.

Politico Investigation
Agriculture Department buries studies showing dangers of climate change
          The Trump Administration has stopped promoting government-
        funded research into how higher temperatures can damage crops 
        and pose health risks.

By Helena Bottemiller Evich
06/23/2019 05:04 p.m. EDT
Updated 06/23/2019 10:37 p.m. EDT

    The Trump Administration has refused to publicize dozens of 
government-funded studies that carry warnings about the effects of 
climate change, defying a longstanding practice of touting such 
findings by the Agriculture Department's acclaimed in-house scientists.
    The studies range from a groundbreaking discovery that rice loses 
vitamins in a carbon-rich environment--a potentially serious health 
concern for the 600 million people world-wide whose diet consists 
mostly of rice--to a finding that climate change could exacerbate 
allergy seasons to a warning to farmers about the reduction in quality 
of grasses important for raising cattle.
    All of these studies were peer-reviewed by scientists and cleared 
through the non-partisan Agricultural Research Service, one of the 
world's leading sources of scientific information for farmers and 
consumers.
    None of the studies were focused on the causes of global warming--
an often politically charged issue. Rather, the research examined the 
wide-ranging effects of rising carbon dioxide, increasing temperatures 
and volatile weather.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Rice is tossed in a pot by a woman in Ganta, Liberia. 
  
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Villagers work at Longji Rice Terrace at Longsheng Various 
        Nationalities Autonomous County on June 2, 2018, in Guilin, 
        Guangxi Zhuang Autonomous Region of China. D AP and Getty 
        Images.

    The Administration, researchers said, appears to be trying to limit 
the circulation of evidence of climate change and avoid press coverage 
that may raise questions about the Administration's stance on the 
issue.
    ``The intent is to try to suppress a message--in this case, the 
increasing danger of human-caused climate change,'' said Michael Mann, 
a leading climate scientist at Pennsylvania State University. ``Who 
loses out? The people, who are already suffering the impacts of sea 
level rise and unprecedented super storms, droughts, wildfires and heat 
waves.''
    Agriculture Secretary Sonny Perdue, who has expressed skepticism 
about climate science in the past and allegedly retaliated (https://
www.politico.com/story/2019/05/07/agriculture-economists-leave-trump-
1307146) against in-house economists whose findings contradicted 
Administration policies, declined to comment. A spokesperson for USDA 
said there have been no directives within the department that 
discouraged the dissemination of climate-related science.
    ``Research continues on these subjects and we promote the research 
once researchers are ready to announce the findings, after going 
through the appropriate reviews and clearances,'' the spokesperson said 
in an email.
    ``USDA has several thousand scientists and over 100,000 employees 
who work on myriad topics and issues; not every single finding or piece 
of work solicits a government press release,'' the spokesperson added.
    However, a POLITICO investigation revealed a persistent pattern in 
which the Trump Administration refused to draw attention to findings 
that show the potential dangers and consequences of climate change, 
covering dozens of separate studies. The Administration's moves flout 
decades of department practice of promoting its research in the spirit 
of educating farmers and consumers around the world, according to an 
analysis of USDA communications under previous Administrations.
    The lack of promotion means research from scores of government 
scientists receives less public attention. Climate-related studies are 
still being published without fanfare in scientific journals, but they 
can be very difficult to find. The USDA doesn't post all its studies in 
one place.
    Since Trump took office in January 2017, the Agricultural Research 
Service has issued releases for just two climate-related studies, both 
of which had findings that were favorable to the politically powerful 
meat industry. One found that beef production makes a relatively small 
contribution to greenhouse gas emissions and another that removing 
animal products from the diet for environmental reasons would likely 
cause widespread nutritional problems. The agency issued a third press 
release about soy processing that briefly mentioned greenhouse gas 
emissions, noting that reducing fossil fuel use or emissions was ``a 
personal consideration'' for farmers.
    By contrast, POLITICO found that in the case of the groundbreaking 
rice study USDA officials not only withheld their own prepared release, 
but actively sought to prevent dissemination of the findings by the 
agency's research partners.
Highlights from a USDA Study

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Science Advances, USDA ARS.
          By Patterson Clark, POLITICO Pro DataPoint.

    Researchers at the University of Washington had collaborated with 
scientists at USDA, as well as others in Japan, China and Australia, 
for more than 2 years to study how rising carbon dioxide in the 
atmosphere could affect rice--humanity's most important crop. They 
found that it not only loses protein and minerals, but is also likely 
to lose key vitamins as plants adapt to a changing environment.
    The study had undergone intensive review, addressing questions from 
academic peers and within USDA itself. But after having prepared an 
announcement of the findings, the department abruptly decided not to 
publicize the study and urged the University of Washington to hold back 
its own release on the findings, which two of their researchers had co-
authored.
    In an email to staffers dated May 7, 2018, an incredulous Jeff 
Hodson, a UW communications director, advised his colleagues that the 
USDA communications office was ``adamant that there was not enough data 
to be able to say what the paper is saying, and that others may 
question the science.''
    ``It was so unusual to have an agency basically say: `Don't do a 
press release,' '' Hodson recalled in an interview. ``We stand for 
spreading the word about the science we do, especially when it has a 
potential impact on millions and millions of people.''
Agriculture Secretary Sonny Perdue: Farmers are a `casualty' in China 
        trade war

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Editor's note: the video is retained in Committee file, and 
        can be accessed at: https://www.politico.com/story/2019/06/23/
        agriculture-department-climate-change-1376413.

    Researchers say the failure to publicize their work damages the 
credibility of the Agriculture Department and represents an unwarranted 
political intrusion into science.
    ``Why the hell is the U.S., which is ostensibly the leader in 
science research, ignoring this?'' said one USDA scientist, who spoke 
on the condition of anonymity to avoid the possibility of retaliation. 
``It's not like we're working on something that's esoteric . . . we're 
working on something that has dire consequences for the entire 
planet.''
    ``You can only postpone reality for so long,'' the researcher 
added.
          * * * * *
    With a budget of just over $1 billion, the USDA's Agricultural 
Research Service--known as ARS--is often referred to as ``one of the 
best kept secrets'' in the sprawling department because of its outsize 
impact on society. The agency has pioneered a variety of major 
breakthroughs, from figuring out how to mass produce penicillin so it 
could be widely used during World War II to coming up with creative 
ways to keep sliced apples from browning, and has for decades been at 
the forefront of understanding how a changing climate will affect 
agriculture.
    The agency has stringent guidelines to prevent political meddling 
in research projects themselves. The Trump Administration, researchers 
say, is not directly censoring scientific findings or black-balling 
research on climate change. Instead, they say, officials are 
essentially choosing to ignore or downplay findings that don't line up 
with the Administration's agenda.
    Some scientists see the fact that the Administration has targeted 
another research arm of USDA, the Economic Research Service, as a 
warning shot. Perdue is moving ERS out of Washington, which some 
economists see as retribution for issuing reports that countered the 
Administration's agenda, as POLITICO recently reported (https://
www.politico.com/story/2019/05/07/agriculture-economists-leave-trump-
1307146).
    ``There's a sense that you should watch what you say,'' said 
Ricardo Salvador, director of the food and environment program at the 
Union of Concerned Scientists. ``It's going to result in some pretty 
big gaps in practical knowledge. . . . it will take years to undo the 
damage.''
A Pattern of Ignoring Climate Science
          Agricultural Research Service news stories that mention 
        studies related to climate change, global warming, atmospheric 
        carbon dioxide, carbon sequestration or storage, greenhouse 
        gases or global desertification have grown scarce under the 
        Trump Administration. Not included in the tally below: News 
        about climate scientists winning awards or articles with only 
        links to climate-related stories.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          * 2019 data as of June 7.
          Sources: Science Advances, USDA ARS.
          By Patterson Clark, POLITICO Pro DataPoint.

    Among the ARS studies that did not receive publicity from the 
Agriculture Department are:

  <bullet> A 2017 finding that climate change was likely to increase 
        agricultural pollution and nutrient runoff in the Lower 
        Mississippi River Delta, but that certain conservation 
        practices, including not tilling soil and planting cover crops, 
        would help farmers more than compensate and bring down 
        pollutant loads regardless of the impacts of climate change.

  <bullet> A January 2018 finding that the Southern Plains--the 
        agriculture-rich region that stretches from Kansas to Texas--is 
        increasingly vulnerable to the effects of climate change, from 
        the crops that rely on the waning Ogallala aquifer to the 
        cattle that graze the grasslands.

  <bullet> An April 2018 finding that elevated CO<INF>2</INF> levels 
        lead to ``substantial and persistent'' declines in the quality 
        of certain prairie grasses that are important for raising 
        cattle. The protein content in the grass drops as 
        photosynthesis kicks into high gear due to more carbon dioxide 
        in the atmosphere--a trend that could pose health problems for 
        the animals and cost ranchers money.

  <bullet> A July 2018 finding that coffee, which is already being 
        affected by climate change, can potentially help scientists 
        figure out how to evaluate and respond to the complex 
        interactions between plants, pests and a changing environment. 
        Rising CO<INF>2</INF> in the atmosphere is projected to alter 
        pest biology, such as by making weeds proliferate or 
        temperatures more hospitable to damaging insects.

  <bullet> An October 2018 finding, in conjunction with the USDA Forest 
        Service, that climate change would likely lead to more runoff 
        in the Chesapeake Bay watershed during certain seasons.

  <bullet> A March 2019 finding that increased temperature swings might 
        already be boosting pollen to the point that it's contributing 
        to longer and more intense allergy seasons across the northern 
        hemisphere. ``This study, done across multiple continents, 
        highlights an important link between ongoing global warming and 
        public health--one that could be exacerbated as temperatures 
        continue to increase,'' the researchers wrote.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Dried up rice stalks are burned on a field in Antipas on 
        April 6, 2016, in Cotabato, Mindanao, Philippines. 
   
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Farmers dump out drying and rotten grapes at a grapery in 
        Yuping Township of Shapingba [District] on Aug. 8, 2006, in 
        Chongqing Municipality, China.
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Rain clouds pass over an unplanted farm field on May 29 near 
        Emden, Illinois. 
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Rain water storages for sale on April 28, 2017, in Thua Duc 
        Village, Binh Dai District, Ben Tre Province, Vietnam. D Getty 
        Images.

    Those were among at least 45 ARS studies related to climate change 
since the beginning of the Trump Administration that did not receive 
any promotion, according to POLITICO's review. The total number of 
studies that have published on climate-related issues is likely to be 
larger, because ARS studies appear across a broad range of narrowly 
focused journals and can be difficult to locate.
    Five days after POLITICO presented its findings to the department 
and asked for a response, ARS issued a press release on wheat genetics 
that used the term ``climate change.'' It marked the third time the 
agency had used the term in a press release touting scientific findings 
in 2\1/2\ years.
    While spokespeople say Perdue, the former Georgia governor who has 
been Agriculture Secretary since April 2017, has not interfered with 
ARS or the dissemination of its studies, the Secretary has recently 
suggested that he's at times been frustrated with USDA research.
    ``We know that research, some has been found in the past to not 
have been adequately peer-reviewed in a way that created wrong 
information, and we're very serious when we say we're fact-based, data-
driven decision makers,'' he said in April, responding to a question 
from POLITICO. ``That relies on sound, replicable science rather than 
opinion. What I see unfortunately happening many times is that we tried 
to make policy decisions based on political science rather than on 
sound science.''
    President Donald Trump, for his part, has been clear about his 
views on climate science and agricultural research generally: He 
doesn't think much of either.
    In each of his budgets, Trump has proposed deep cuts to 
agricultural research, requests that ignore a broad, bipartisan 
coalition urging more funding for such science as China and other 
competitors accelerate their spending. Congress has so far kept funding 
mostly flat.
    The President has also repeatedly questioned the scientific 
consensus on climate change. After the government released its latest 
national climate assessment in November, a sweeping document based on 
science, Trump bluntly told reporters: ``I don't believe it.''
    Officials at USDA apparently took the hint and the department did 
not promote the report, despite the fact that it was drafted in part by 
its own scientists and included serious warnings about how a changing 
climate poses a threat to farmers and ranchers across the country.
          * * * * *
    The USDA's failure to publicize climate-related research does more 
than just quell media coverage: It can also prompt universities, 
fearful of antagonizing a potential source of funding, to reconsider 
their own plans to publicize studies.
    The saga of the rice study last spring shows how a snub from USDA 
can create spillover effects throughout the academic world.
    Emails obtained by POLITICO from one of the study's co-authors show 
that ARS communications staff actually wrote a release on the study, 
but then decided not to send it out. The Agriculture Department and UW 
in Seattle had initially planned to coordinate their releases, which 
would both be included in a press packet prepared by the journal 
Science Advances, which published the study (https://
advances.sciencemag.org/content/4/5/eaaq1012) in May.
    The journal had anticipated there would be significant media 
interest in the paper. Several earlier studies had already shown that 
rice loses protein, zinc and iron under the elevated CO<INF>2</INF> 
levels that scientists predict for later this century, raising 
potentially serious concerns for hundreds of millions of people who are 
highly dependent on rice and already at risk of food insecurity. This 
latest study by ARS and its academic partners around the world had 
confirmed those previous findings and--for the first time--found that 
vitamins can also drop out of rice in these conditions.
    Several days before the paper was slated to be published, Hodson, 
the UW communications official, sent ARS communications staff a draft 
of the press release the university was planning to send out. ARS 
officials returned the favor, sending UW their own draft press release. 
The headline on USDA's draft was clear: ``Rising Carbon Dioxide Levels 
Can Reduce Vitamin Content in Rice,'' though the body of the release 
did not mention the word ``climate.''
    All seemed to be on track for the rollout. A few days later, 
however, Hodson got a phone call from an ARS communications staffer. 
She told him that the agency had decided not to issue a press release 
after all and suggested UW reconsider its plans, noting that senior 
leaders at ARS now had serious concerns about the paper, according to 
the emails.
    The staffer explained that officials were ``adamant that there was 
not enough data to be able to say what the paper is saying, and that 
others may question the science,'' Hodson wrote in his email to his 
colleagues shortly after the call.
    Having the Agriculture Department question the data just days 
before its publication struck many of the co-authors as inappropriate. 
The paper had already gone through a technical and policy review within 
ARS, both of which are standard procedure, and it had gone through a 
stringent peer-review process.
    Kristie Ebi, one of the co-authors from UW, replied to Hodson: 
``Interesting--USDA is really trying to keep the press release from 
coming out.''
    Nonetheless, senior leaders at UW took USDA's concerns about the 
paper seriously, Hodson said. (It also wasn't lost on anyone, he said, 
that other parts of the university receive substantial grant funding 
from the Agriculture Department.) The university conducted an internal 
review and determined that the science was sound. It went ahead with 
its press release.
    The USDA's attempt to quash the release had ripple effects as far 
as Nebraska. After catching wind of USDA's call to the University of 
Washington, Bryan College of Health Sciences, in Lincoln, Neb., delayed 
and ultimately shortened its own release to avoid potentially offending 
the Agriculture Department.
    ``I'm disappointed,'' said Irakli Loladze, a mathematical biologist 
at Bryan who co-authored the rice paper. ``I do not even work at the 
USDA, but a potential call from the government agency was enough of a 
threat for my school to skip participating in the press-package 
arranged by the journal. Instead, our college issued a local and 
abbreviated release.''
    A spokesperson for Bryan College said that the institution supports 
Loladze's work and noted that the college ultimately issued its own 
press release and covered the study in its own publications.
    ``There was no omission or intentional delay based on what others 
were saying or doing,'' the spokesperson said.
    Despite the efforts of the Agriculture Department, the rice paper 
attracted substantial international press coverage, largely because 
many of the outside institutions that collaborated on the study, 
including the University of Tokyo, promoted it.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A farmer is working on a rice field with a rotary cultivator 
        in the rural surroundings of the suburb New Town in Kolkata, 
        West Bengal, India. D Frank Bienewald/LightRocket via Getty 
        Images.

    Kazuhiko Kobayashi, an agricultural scientist at the University of 
Tokyo and co-author on the paper, said he couldn't understand why the 
U.S. government wouldn't publicize such findings.
    ``It's not necessarily bad for USDA,'' he said in an interview. 
``Actually, it's kind of neutral.''
    ``In Japan we have an expression: sontaku,'' he said, offering his 
own speculation about the political dynamic in the United States. ``It 
means that you don't want to stimulate your boss . you feel you cannot 
predict your boss's reaction.''
    A USDA spokesperson said the decision to spike the press release on 
the rice study was driven by a scientific disagreement, not by the fact 
that it was climate-related.
    ``The concern was about nutritional claims, not anything relating 
to climate change or [CO<INF>2</INF>] levels,'' the spokesperson said 
in an email. ``The nutrition program leaders at ARS disagreed with the 
implication in the paper that 600 million people are at risk of vitamin 
deficiency. They felt that the data do not support this.''
    The spokesperson said no political appointees were involved in the 
decision.
    Authors of the rice study strongly disagreed with the concerns USDA 
raised about their paper. In an email leading up to publication, 
Loladze, the Bryan College researcher, accused the department of 
essentially ``cherry picking'' data to raise issues that weren't 
scientifically valid, according to the emails.
          * * * * *
    When the Agriculture Department chooses to promote a study, the 
impact can be significant, particularly for the agriculture-focused 
news outlets that are widely read by farmers and ranchers.
    Earlier this year, when the agency decided to issue its release 
about the study finding that producing beef--often criticized for 
having an outsize carbon and water footprint--actually makes up a very 
small fraction of greenhouse gas emissions, the agricultural trade 
press cranked out several stories, much to the delight of the beef 
industry. The study had also been supported by the National Cattlemen's 
Beef Association.
    The USDA's efforts to hide climate work aren't limited to ARS. A 
review of department press releases, blog posts and social media shows 
a clear pattern of avoiding the topic. These platforms largely eschew 
the term ``climate change'' and also steer clear of climate-related 
terms. Even the word ``climate'' itself appears to have now fallen out 
of favor, along with phrases like carbon, greenhouse gas emissions, 
adaptation and sequestration.
    In April, for example, USDA sent out a press release noting that 
USDA officials had signed on to a communique on the sidelines of a G20 
agricultural scientists' meeting that reaffirmed their commitment to 
``science-based decision making.'' The release made no mention of the 
fact that most of the principles USDA had agreed to were actually 
related to ``climate-smart'' agriculture.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          President Donald Trump, left, greets Secretary of Agriculture 
        Sonny Perdue on stage during the 100th American Farm Bureau 
        Federation Convention in New Orleans, Louisiana, in January. D 
        Kathleen Flynn/Bloomberg via Getty Images.

    Scott Hutchins, USDA's Deputy [Under Secretary] for research, 
education and economics, told POLITICO at the time that he emphasized 
science-based decision-making in the release--not climate--because that 
was the strength the participants brought to these international 
dialogues. He added that there was ``no intent whatsoever'' to avoid 
including the words ``climate smart'' in the release.
    A spokesperson for USDA said that department leadership ``has not 
discouraged ARS or any USDA agency from using terms such as climate 
change, climate, or carbon sequestration, or from highlighting work on 
these topics.''
    But David Festa, Senior Vice President of Ecosystems at the 
Environmental Defense Fund, which works with farmers and ranchers on 
climate mitigation, said tensions within the USDA over climate issues 
are preventing a more robust discussion of the effects of climate 
change on American agriculture.
    ``USDA really could and should be leading . . . and they're not,'' 
Festa said.
    Aaron Lehman, an Iowa farmer whose operation is roughly half 
conventional, half organic grain, said farmers are simply not getting 
much information from USDA related to how to adapt to or mitigate 
climate change.
    ``My farmers tell me this is frustrating,'' said Lehman, who serves 
as Iowa Farmers Union President.
    The gap in the conversation is particularly pronounced right now, 
he said, as an unprecedented percentage of growers across the Midwest 
have had difficulty planting their crops because fields are either too 
wet or flooded--an extreme weather scenario that's been disastrous for 
agriculture this year.
    ``Farmers have a sense that the volatility is getting worse,'' he 
said.
    ``You get the sense that it's very sensitive,'' Lehman said of the 
current dynamic around climate science at USDA. ``But if you can't have 
an open conversation about it, if you feel like you're being shunned, 
how are we going to make progress?''
          * * * * *
    Even during the George W. Bush Administration, when climate change 
was first deemed a ``sensitive'' topic within ARS--a designation that 
means science and other documents related to it require an extra layer 
of managerial clearance--the department still routinely highlighted 
climate-related research for the public.
    In the first 3 years of Bush's second term, for example, USDA 
promoted research on how farmers can change their tilling practices to 
reduce carbon being released into the atmosphere, a look at how various 
farm practices help capture carbon into soil, and a forecast on how 
rising CO<INF>2</INF> levels would likely affect key crops. The 
communications office highlighted work showing that using switchgrass 
as a biofuel in lieu of ethanol could store more carbon in soil, which 
would not only mitigate greenhouse gas emissions but also boost soil 
health. There was also a release on a study simulating how climate 
change would pose challenges to groundwater.
    Under Bush, the department publicly launched a 5 year project on 
``Climate Friendly Farming'' and touted a sweeping initiative aimed at 
better understanding and reducing agriculture's greenhouse emissions.
    ``Even a small increase in the amount of carbon stored per acre of 
farmland would have a large effect on offsetting U.S. greenhouse gas 
emissions,'' an ARS release noted in 2005.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A worker rests beside packages of rice at a farm product 
        market on April 8, 2008 in Wuhan of Hubei Province, China. D 
        China Photos/Getty Images.

    Jim Connaughton, who served as Chairman of the White House Council 
on Environmental Quality and director of the White House Office of 
Environmental Policy during the Bush Administration, said he was 
encouraged that USDA and other agencies have so far been able to 
continue conducting climate science even as the issue has become more 
politically sensitive within the current Administration. However, he 
noted it was ``really unusual'' for research agencies to systematically 
hold back scientific communication.
    During the Bush era, he said, ``The agencies were unfettered in 
their own decisions about publicizing their own science.''
    ``The tone from the top matters,'' he added. ``The political 
appointees are taking signals about their own communication products.''
    During the Obama years, USDA became increasingly outspoken about 
climate change and the need to involve agriculture, both in terms of 
mitigation and adaptation.
    The department came up with sweeping action plans on climate change 
and climate science and highlighted its work on a number of different 
platforms, including press releases, blog posts and social media 
blasts. In 2014, Agriculture Secretary Tom Vilsack also launched 
Climate Hubs in ten regions across the country aimed at helping farmers 
and ranchers cope with an increasingly unpredictable climate.
    ``We were trying to take science and make it real and actionable 
for farmers,'' said Robert Bonnie, who served as [Under Secretary] for 
natural resources and the environment at USDA during the Obama 
Administration. ``If you're taking a certain block of research and not 
communicating it, it defeats the purpose of why USDA does the research 
in the first place.''
                              attachment 3

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Rachel Maddow (https://www.msnbc.com/rachel-maddow-show)
Scientists push back against apparent purge at USDA under Trump
June 20, 2019

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Editor's note: the video is retained in Committee file, and 
        can be accessed at: http://www.msnbc.com/rachel-maddow/watch/
        scientists-push-back-against-apparent-purge-at-usda-under-
        trump-62384197574.
          Kevin Hunt, a geographer at the USDA's Economic Research 
        Service, talks with Rachel Maddow about the Trump 
        Administration's effort to push scientists out of the USDA, and 
        the newly formed employee union in his division of the 
        department of which he is the acting-Vice President.
Response from William F. Tracy, Ph.D., Professor, Department of 
        Agronomy, University of Wisconsin-Madison
Questions Submitted by Hon. Jefferson Van Drew, a Representative in 
        Congress from New Jersey
    Question 1. As was stated before that China is overtaking the U.S. 
in many of the biotech and research aspects. Would it not seem that the 
money and resources needed to relocate could be better used in 
continued research?
    Answer. It has been demonstrated that investment in agricultural 
research returns economic benefits many-fold to the nation that makes 
the investment. From the founding of the land-grant universities and 
the Hatch Agricultural Research Act in the 1880s to the National Plant 
Genome Initiative, the United States has been the world leader in 
agricultural research. In turn we have been the leaders in agricultural 
productivity and efficiency. This is no longer the case. Statistics 
show that China is pouring massive amounts of money into ag research. I 
have seen entire, modern, fully equipped, university research campus 
spring up where nothing existed but rice paddies 3 years before. I have 
said to my colleagues that we are in the path of a steamroller and our 
leaders don't know it is coming. All this is to emphatically answer yes 
to your question, our resources must be allocated to increased 
research. In addition to the cost of the move, the proposed move would 
have very negative effects on research due to lost time and expertise.

    Question 2. Dr. Bill Tracy, as you mentioned there may be perceived 
biases that would exist if we relocate these agencies outside of the 
Washington, D.C. area. We have a couple land-grant universities in New 
Jersey, including a major research university--Rutgers University--as 
do many states across the country. There is concern with how 
stakeholders could be affected with relocation. Currently all 
stakeholders have relatively equal access to NIFA and ERS. If we are to 
relocate these agencies to specific areas, how do you think that would 
impact stakeholders who would feel disadvantaged relative to those 
stakeholders who would ``benefit'' from the relocation?
    Answer. The proposed move will be negative for all stakeholders, 
perhaps especially the ones that are closest to where NIFA and ERS 
relocate. The perception of impartiality and lack of favoritism is 
critical to the success of all granting agencies. NIFA has been 
scrupulous in developing policies and procedures that not only avoid 
favoritism and conflict of interest but avoid any appearance of such. A 
move out of the National Capital Area will inevitably create 
perceptions of bias. Just the suggestion of moving them already has. 
The fact that universities entered into competition for agencies that 
they should be in no way connected or associated with indicates the 
problem. In fact, NIFA and ERS employees should have no interaction 
with local university personnel. So why are we moving the agencies to 
be closer to them? Land grant and other academic researchers are the 
direct clientele of NIFA, not farmers or ranchers. Any hint of 
favoritism will be extremely damaging to these agencies.
Questions Submitted by Hon. Kim Schrier, a Representative in Congress 
        from Washington
    Question 1. As someone with a background in medicine and science I 
recognize the importance of a robust research community. I look forward 
to delving into the science of agriculture with my colleagues. To be 
clear, I don't want to see research compromised by moving NIFA and ERS 
out of D.C. It may be expensive to live in D.C., but it is more 
expensive to lose the combined brainpower and experience of scientists 
who will leave the USDA rather than relocate.
    As the letter I submitted into the record and cosigned by Dean 
Andre-Denis Wright of Washington State University states, research 
advances have occurred because of the close collaboration of numerous 
research funding agencies. One such example is the Plant Genome 
Initiative. NIFA partnered with NSF, NIH and the Department of Energy 
to sequence the genomes of economically important plants and led to 
improved bean, potato, tomato, wheat and barley while at the same time 
training thousands of undergraduate and graduate students who will be 
the next generation plant scientists and breeders.
    In my opinion, such integrative science is essential for meeting 
future challenges. My question to Dr. Payne and Dr. Tracy is what kind 
of impact do you expect the proposed relocation of NIFA and ERS will 
have on collaborative, multi-agency research from USDA?
    Answer. Representative Schrier,

    Thank you for the opportunity to clarify and expand my testimony on 
this very important subject.
    You mention the shining example of multi-agency collaboration, the 
Plant Genome Initiative, involving USDA-NIFA, NIH, NSF, and DOE. The 
research results and the training of thousands of students, who are now 
becoming top notch researchers, completely changed the way we do plant 
science research. As the science becomes more complex and the stakes 
higher, we will need to form many more of these highly effective multi-
agency collaborations. Having NIFA and ERS 1000 miles and a time zone 
away will not only handicap NIFA an ERS in being effective partners 
with the other agencies, it will greatly weaken their role and 
influence, out of sight out of mind. I have been in enough video 
conferences to know that the off-site party does not have the same 
access and influence as those, literally, around the table.
    Also moving the NIFA and ERS agencies will mean that Congress's 
constituents will be deprived of their access to NIFA and ERS 
scientists and managers. Often the farmers, consumers, scientists, etc. 
who visit you and your colleagues in Washington[,] D.C., will take the 
opportunity to discuss needs and programs with scientists and managers 
at the various agencies. They will not be able to visit NIFA and ERS if 
these agencies are 1,000 miles away.

    Question 2. Do you anticipate the USDA experiencing retention 
issues of current scientific experts if the NIFA/ERS facilities are 
moved out of the D.C. region?
    Answer. We are already seeing an exodus of talented scientific 
experts, simply under the threat of the move. I believe this will 
increase with the move. We will lose not only experienced scientists 
but deep institutional knowledge. These losses will severely handicap 
these agencies from carrying out the important work authorized by 
Congress and desired by the American people. It will be many years, if 
ever, before they will be able to operate at full strength.

    Question 3. Given the potential location of the proposed NIFA/ERS 
faculties, are you concerned that having this located near one 
institution, and not in a ``neutral'' area will inadvertently 
facilitate interest in supporting that institution's efforts? Have you 
been given adequate assurances by USDA that research around the country 
can be conducted in a way to avoid favoritism and maintain the best 
level of research?
    Answer. The proposed more will be negative for all stakeholders, 
perhaps especially the ones that are closest to where NIFA and ERS 
relocate. The perception of impartiality and lack of favoritism is 
critical to the success of all granting agencies. NIFA has been 
scrupulous in developing policies and procedures that not only avoid 
favoritism and conflict of interest but avoid any appearance of such. A 
move out of the National Capital Area will inevitably create 
perceptions of bias. Just the suggestion of moving them already has. 
The fact that universities entered into competition for agencies that 
they should be in no way connected or associated indicates the problem. 
In fact, NIFA and ERS employees should have no interaction with local 
university personnel. So why are we moving the agencies to be closer to 
them? Land-grant and other academic researchers are the direct 
clientele of NIFA, not farmers or ranchers. Any hint of favoritism will 
be extremely damaging to these agencies.
Response from Elizabeth J. Brownlee, Owner and Operator, Nightfall 
        Farm; President, Hoosier Young Farmers Coalition; Member, 
        National Young Farmers Coalition
Question Submitted by Hon. Jefferson Van Drew, a Representative in 
        Congress from New Jersey
    Question. As was stated before that China is overtaking the U.S. in 
many of the biotech and research aspects, would it not seem that the 
money and resources needed to relocate could be better used in 
continued research?
    Answer. Thank you for your question, Representative Van Drew. I 
agree entirely. I would like to explain why.
    The relocation will have a clear, immediate cost in relocating two 
agencies There will also be a cost in delayed research. Many critical 
research projects meant to inform policy makers will either slow down 
or come to a halt during the moving process. Additionally, 
institutional knowledge will be lost as staff leave the agency and 
choose not to relocate. Estimates by the ERS union show that four out 
of five staff will choose not to relocate with the agency, causing a 
significant decline in the pace and quality of agricultural research.
    I can offer an example of how this might look for farmers and our 
allies. Because of the government shutdown, NIFA had a delay in rolling 
out one of their critical grant programs, the Beginning Farmer and 
Rancher Development Program (BFRDP). The program was announced on a 
delayed schedule, which meant that farmer groups like ours had to write 
grant applications during the busy spring planting season (instead of 
during the slower winter and early spring). We worked closely with a 
land-grant university and two farmer organizations on applications, but 
it was almost impossible to fit this work in between preparing fields 
and pasture fences, starting up farmers market seasons, and the regular 
push of spring work. If these two agencies are forced to relocate, 
logic holds that there will have to be delays in rolling out grant 
programs, conducting research, and informing policy makers. This is a 
real, on the ground hardship for farmers like me.
Question Submitted by Hon. James R. Baird, a Representative in Congress 
        from Indiana
    Question. Ms. Brownlee, I appreciated your testimony and the chance 
to learn more about the challenges and opportunities you're facing as a 
young farmer. I appreciate your leadership in the Hoosier Young Farmers 
Coalition and share your passion for the next generation of 
agriculture.
    During the hearing, you discussed many of the Federal programs that 
have benefited you and other new and beginning farmers. Can you speak 
to any of the unmet needs of new farmers that Congress should be aware 
of and look to address, going forward?
    Answer. Thank you Representative Baird, for your question and for 
striving to serve beginning farmers in Indiana.
    One of the unmet needs that Congress should consider is providing 
outreach and assistance to young farmers in accessing key farm bill 
programs. Most young farmers are not participating in USDA programs, 
because they are not aware of the options or how to access them. One 
way to overcome this is through quick and thorough implementation of 
the 2018 Farm Bill. The bill included several excellent programs to 
help new farmers, including the Local Agriculture Market Program (LAMP) 
and Farming Opportunities Training and Outreach (FOTO) program. These 
programs will need adequate staff and resources to be rolled out in 
full force and reach the new producers who need them. These two 
programs address unmet needs by providing funding for land-grant 
universities and others to provide training for new and socially 
disadvantaged farmers; grants for farmers who are building up their 
regional food systems; incentives for farmers to improve their energy 
efficiency; and other commercial-scale solutions that mean farmers can 
produce quality food and keep more of every food dollar.
    I'd like to offer up an example of why Congress must be proactive 
about ensuring the implementation of the 2018 Farm Bill:
    The bill calls for a new and critical position on the Federal 
level, to have a National Beginning Farmer and Rancher Coordinator, as 
well as a Beginning Farmer and Rancher Coordinator in each state. This 
person will be an existing USDA employee--and is critical to ensuring 
that new farmers know about and can access Federal programs. This role 
can assist local USDA offices that lack the capacity or knowledge to 
meet the needs of beginning farmers. Many USDA field staff provide 
exceptional customer service to beginning farmers--but many others have 
limited experience working with diverse specialty crop, fruit, or 
pasture-based systems, local and regional marketing, or Federal 
programs designed specifically for beginning farmers. It's encouraging 
that the farm bill directed USDA to identify a beginning farmer and 
rancher coordinator in each state: this person can publicize programs 
to beginning farmers, help train coworkers, and answer questions when a 
USDA county employee doesn't know how to assist a beginning farmer or 
rancher.
    Although the 2018 Farm Bill was passed over 6 months ago, USDA has 
only recently designated someone to serve as the National Beginning 
Farmer and Rancher Coordinator, and has yet to identify the State 
Coordinators. Many farm bill programs have already come and gone for 
2018-2019: that means that there was a chance for new farmers to 
utilize Federal funding to improve their farms, but the farmers likely 
didn't know about the opportunities and local USDA staff didn't know 
how to help the farmers. Many of these programs' annual enrollment 
period has already closed to receive new applications--so beginning 
farmers have gone another year without the support of a specialized 
USDA staffer or targeted outreach.
    Congress needs to ensure that USDA has the resources, staff 
capacity, institutional knowledge, and expertise needed to implement 
the 2018 Farm Bill as quickly and effectively as possible. Then, we can 
learn from remaining gaps in meeting new farmers' needs, and make the 
next farm bill even stronger.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
